<html>
<title> - PROTECTING OUR YOUTH: PATHS TO GANG PREVENTION IN OUR COMMUNITIES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                     PROTECTING OUR YOUTH: PATHS TO
                   GANG PREVENTION IN OUR COMMUNITIES

=======================================================================

                             FIELD HEARING

                               before the

                        SUBCOMMITTEE ON HEALTHY
                        FAMILIES AND COMMUNITIES

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

               HEARING HELD IN FREEPORT, NY, JUNE 4, 2007

                               __________

                           Serial No. 110-42

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html


                                 ______
                                     
                    U.S. GOVERNMENT PRINTING OFFICE
35-463                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Ranking Minority Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            Dean Heller, Nevada
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director
                                 ------                                

            SUBCOMMITTEE ON HEALTHY FAMILIES AND COMMUNITIES

                 CAROLYN McCARTHY, New York, Chairwoman

Yvette D. Clarke, New York           Todd Russell Platts, Pennsylvania,
Carol Shea-Porter, New Hampshire       Ranking Minority Member
Dennis J. Kucinich, Ohio             Howard P. ``Buck'' McKeon, 
Raul M. Grijalva, Arizona                California
John P. Sarbanes, Maryland           Kenny Marchant, Texas
Jason Altmire, Pennsylvania          Luis G. Fortuno, Puerto Rico
John A. Yarmuth, Kentucky            David Davis, Tennessee
                                     Dean Heller, Nevada


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 4, 2007.....................................     1

Statement of Members:
    McCarthy, Hon. Carolyn, Chairwoman, Subcommittee on Healthy 
      Families and Communities, Committee on Education and Labor.     1
    Platts, Hon. Todd Russell, Senior Republican Member, 
      Subcommittee on Healthy Families and Communities, Committee 
      on Education and Labor.....................................     3
        Prepared statement of....................................     4
    Woolsey, Hon. Lynn C., a Representative in Congress from the 
      State of California:
        Prepared statement of Jane Bender, committee chair, Gang 
          Prevention/Intervention Programs.......................    59

Statement of Witnesses:
    Argueta, Sergio, executive director of S.T.R.O.N.G. Youth, 
      Inc........................................................    22
        Prepared statement of....................................    26
    Hayes, Edward, chief executive officer, Cayuga Home for 
      Children...................................................    20
        Prepared statement of....................................    21
    Maddox, Chris, assistant outreach worker, H.E.V.N............    33
        Prepared statement of....................................    34
        Additional H.E.V.N. materials submitted for the record...    35
    Rice, Kathleen M., district attorney, Nassau County, NY......     7
        Prepared statement of....................................    10
    Sapp-Grant, Isis, LMSW, director of Youth & Empowerment 
      Mission, Inc...............................................    29
        Prepared statement of....................................    31
    Woodward, Michael, chief of Freeport Police Department.......    13
        Prepared statement of....................................    14


                     PROTECTING OUR YOUTH: PATHS TO
                   GANG PREVENTION IN OUR COMMUNITIES

                              ----------                              


                          Monday, June 4, 2007

                     U.S. House of Representatives

            Subcommittee on Healthy Families and Communities

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:21 a.m., at 
the Village Hall, 46 North Ocean Avenue, Freeport, New York, 
Hon. Carolyn McCarthy [chairwoman of the subcommittee] 
Presiding.
    Present: Representatives McCarthy, Clarke, and Platts.
    Staff Present: Deborah Koolbeck, Policy Adviser for 
Subcommittee on Healthy Families and Communities; and Kirstan 
Duncan, Minority Professional Staff Member.
    Mr. Glacken. Good morning. First of all, I would like to 
welcome Congresswoman McCarthy, Ranking Member Platts, Ms. 
Clarke, Subcommittee on Healthy Families and Communities, to 
participate in this very important field hearing concerning a 
very important topic on all of our minds, and that is gang 
prevention, diverting our youth from the allure of gang 
participation, their channel, their energy, time and their 
efforts into a much more constructive healthy activity.
    I think that as the hearing progresses it will become clear 
that this is not just anyone's problem, this is everyone's 
problem. We all have to deal with the situation because we're 
talking about our children and our grandchildren. So it is 
essential that every one of us, whether it be state officials, 
law enforcement officials, congressmen, senators, all the way 
up to federal government, we all have to deal with the 
situation together and we have to solve this problem working 
together because it is truly a national problem.
    I would just like to welcome you all to Freeport and we are 
delighted to have the Congresswoman Clarke here. She is welcome 
here any time and we would be delighted to ask her to host any 
hearing at any time.
    Without any further ado, Congresswoman McCarthy.
    Chairwoman McCarthy. Thank you. I appreciate it.
    The hearing of the committee will come to order.
    Pursuant to committee rule 12(a), any member may submit an 
opening statement which would be made part of a permanent 
record.
    Before we begin, I would like to remind everyone to take a 
moment to ensure that your cell phones and Blackberries are on 
Silent.
    I am pleased to welcome you to the Subcommittee on Healthy 
Families and Communities, the hearing on gang prevention in our 
communities. I would like to thank Mayor Glacken and the Board 
of Trustees in Freeport to support us and provide a location 
for our hearing today. I also wanted to thank my fellow 
subcommittee members, Ranking Member Platts who drove down from 
Pennsylvania in this weather. So I really appreciate you being 
here. And also, Congresswoman Clarke who came in from Brooklyn 
this morning for examining this important issue.
    Even before I was first elected to Congress, I have been 
working and talking about gangs here on Long Island. As we will 
hear today, there is no one program that will address the 
multiple issues that revolve around the issue of gangs in the 
community.
    We will focus this hearing on the programs that work on 
preventing young people from entering gangs. However, 
prevention is a very complex issue. On many levels, we are 
failing our children.
    Today we come together to examine some of these failures 
and learn how to educate and turn around the lives of our 
children.
    Research reveals risk factors that lead young adults to 
join gangs. Poverty, poor education amongst students, jobless, 
unstable family structures all contribute to our children 
exploring the idea of joining a gang.
    When a child does not see any hope for their future, namely 
retaining jobs, contributing to society, they do not pursue or 
maintain these goals. You ask these young people what their 
dreams are, their dreams are always the same, ``I want to be a 
doctor.'' ``I want to be a lawyer.'' ``I want to be a nurse.'' 
``I want to be a teacher.''
    These are things that they dream about. And yet, for a 
reason that we don't know, a lot of them lose those dreams and 
end up joining gangs. That child is at risk for entering a 
gang.
    Young people who do not believe that society has a place 
for them will feel that they are unable to integrate into 
society, will look to gangs to provide acceptance, stability, 
companionship and sense of identity. These children, somewhere, 
lost the hope that they had for the strong vision for their 
future.
    Communities must come together to address these children. 
Government, law enforcement, local education agencies, 
businesses, institutions of higher education, service providers 
and concerned citizens of all ages and walks of life must 
collaborate to meeting the needs of our children so they do not 
seek what they think is the need to join or form a gang.
    The people of Nassau County and across the nation need to 
know that we do care about them. We must invest in the young 
people who work to leverage community resources to serve 
children before and after school, as well. Children in a 
program at school in the morning will help to ensure that the 
children are going to school.
    Furthermore, research shows that the hours between 3 and 6 
on weekdays tend to be the hours that juveniles and gangs 
commit crimes. If we have a reverent, meaningful use for 
keeping current a school program that young people attend in a 
safe location, we could improve academic achievement, self-
esteem and enable these children to envision their future in 
taking the necessary steps to achieve their goals.
    We must also work to ensure to take available time in our 
schools. Bullying and other school violence could either leave 
young people in school or searching for gang protection. 
Children, once again, need to know that schools are safe and 
provide a place where they can learn and grow.
    For our at-risk youth, we must not only invest in their 
education in making their education reverent. But we must 
invest in their personal development. This includes 
interventions for the parents, divorced parents, parents of at-
risk children to strengthen families so that parents can 
essentially protect the lives of their young people and prevent 
them from the life of criminal activities, or worse, their 
death.
    We must also draft interventions in order for our children 
to envision their future. Teach them employment skills and 
challenge them with reaching their goals, such as job training 
or obtaining a college degree.
    Children rise to the level of expectations if we challenge 
our children to do the best that they can. If we expect less 
from them, they will give us less.
    Today we will hear the role of law enforcement in gang 
prevention through the Nassau County District Attorney and 
Freeport Chief of Police. We will learn about evidence-based 
therapy techniques for families and children. In addition, we 
will learn of two organizations who work to, not only prevent 
children from entering gangs, but also to work with them to 
leave gangs and end their affiliation with gangs.
    Furthermore, we will hear from a young adult who two years 
left a gang after five years of being in prison. I look forward 
to hearing each of your testimonies and learning from you.
    I can tell from your testimonies, the one thing that was 
the common theme throughout all the testimonies is prevention. 
That's one thing that I certainly believe in. All of us on the 
committee believe in prevention because that is the key to 
making certain all of our children have a good chance, a fair 
chance and certainly for the future of this nation, a chance 
they all need to make.
    So I want to thank you all for joining us today. And now I 
introduce my ranking member, Mr. Platts from Pennsylvania, for 
his opening statement.
    Mr. Platts. Thank you. I have a written statement I would 
like to submit for the record.
    I just would like to thank you for your voting this hearing 
on such an important issue. Some of the preparation for today 
is that the numbers were staggering for estimates of over 
24,000 gangs in this country, over 700,000 or 800,000 members.
    As the mayor pretty well stated, this is an issue all of us 
need to be concerned about. Federal, state, local officials, 
private sector, those who lived the life of a gang member, 
turned their lives around and now made a difference for other 
citizens, this is something we all need to be concerned about.
    And I want to add my thanks to yours, Madam Chair, to our 
witnesses, a great cross section of individuals in all segments 
for their efforts to address this challenge for our country.
    Each of your written testimonies were obviously--a lot of 
thought went into them, and it's very helpful in a hearing such 
as this one in helping to educate my colleagues and me about 
how to address this issue.
    I will get a little better and confident about everything, 
and as you seek to address a specific issue you become a 
specialist. One of the ways to do that is to get a knowledge of 
those who work in whatever field you're addressing to share 
your knowledge, your expertise with us. And through your 
written testimonies, already you've done that in great form.
    And Ms. Chairwoman talked about how clear it is that we 
know a lot about law enforcement and intervention, but the more 
we do on prevention in addressing the issues that are really 
driving young men and women into gangs, the less we'll have to 
worry about with intervention and law enforcement than if we do 
a good job up front and consult some of the social challenges 
of our communities that lead to that.
    So I'm looking forward to all your testimony here today and 
we're just very grateful to each and every one of you for 
making an effort to be part of this hearing, for the difference 
you're making in your communities, for the children in your 
communities.
    So thank you, Madam Chairwoman.
    [The statement of Mr. Platts follows:]

  Prepared Statement of Hon. Todd Russell Platts, a Representative in 
                Congress From the State of Pennsylvania

    Good Morning. Thank you for joining us for this field hearing on 
protecting our children through gang prevention efforts. I want to 
thank Congresswoman McCarthy for holding this hearing to examine this 
important issue.
    As the Subcommittee begins the process of reauthorizing the 
Juvenile Justice Delinquency Prevention Act, it is important that we 
take a comprehensive look at ways to ensure the safety of our middle 
and high school students. While gangs originally formed to provide 
immigrant students with a type of public support and a sense of 
community, this has all too often manifested violently for our most at-
risk children.
    According to the 2004 National Youth Gang Survey, there are 760,000 
gang members and 24,000 gangs active in the United States. It is often 
said that our children are our most important resource. We must, 
therefore, endeavor to keep them safe from harm and prevent them from 
participating in those at-risk activities often connected to gang 
involvement.
    Research shows that poverty, unstable family structures, and poor 
educational opportunities are just some of the factors that can 
motivate at-risk children to participate in gang activity. These 
studies have also shown that the risk of involvement in crime increases 
the longer a gang member remains active in his or her gang. Effective 
strategies for the prevention, intervention and suppression of gangs 
and gang violence need to be in place in order to protect those 
children that are most at-risk.
    Many in Federal, State, and local government view gang violence as 
a problem faced solely by big cities. Those of us here know, however, 
that suburban and rural populations, including that of Freeport, New 
York, are also battling an escalation of gang activity.
    The Federal government, through the U.S. Department of Justice, has 
supported grant programs to develop effective gang prevention and 
intervention strategies as violent crime and youth gang involvement has 
grown. But this must be done in close collaboration with State and 
local governments and law enforcement to lead prevention, intervention 
and suppression initiatives against gangs and gang crime. We must work 
together to provide alternatives for at-risk children, keeping them off 
the street and encouraging their involvement in a variety of 
educational and enrichment activities.
    I look forward to receiving the testimony of today's witnesses, who 
have firsthand knowledge about quality prevention programs. Thank you 
again for joining us.
                                 ______
                                 
    Chairwoman McCarthy. Ms. Clarke, would you like to say a 
few words?
    Ms. Clarke. Thank you very much, Madam Chair, Ms. McCarthy, 
Ranking Member Platts, to all assembled here.
    I am delighted to bring greetings from New York's 
Congressional district located in central Brooklyn. I vow this 
opportunity to lend my voice to this very important issue of 
gang violence and prevention as a new member to the U.S. House 
of Representatives and former House member of the City of New 
York.
    I've had an opportunity through chairing a committee called 
the Committee on Crime to really do an in-depth look at the 
conditions that basically feed in our operation in-depth, 
particularly in urban areas, as related to youth gangs. So this 
issue of prevention in how we address this growing problem in 
our nation, I think it's very timely.
    You know, gang activity and related violence threaten 
public order and safety in a diverse range of communities. 
Historically, youth gangs were present primarily in urban 
areas. However, today they migrate to suburban and rural areas. 
It is of serious concern to all Americans, not just urban 
Americans.
    So I think having this convention of membership here will 
give us an opportunity to really approach this and 
understanding the nuances across our nation and what each 
community is facing in terms of being able to address 
specifically how we could do prevention, what type of 
interventions are needed based on the climate and environment 
in which our young people are growing up in these days.
    Madam Chair, it is my honor to face this weather. This 
issue is worthy of this type of attention. I want to thank you 
and congratulate you for bringing this to the community of 
Freeport.
    Chairwoman McCarthy. Without objection, all members will 
have 14 days to submit additional materials for the hearing 
record.
    We don't have a lighting system here today. So basically we 
would like to go with five minutes. Members will have five 
minutes, witnesses will have five minutes. So when you hear me 
tap lightly, that means try to finish up.
    And with that, I'm going to be a little more relaxed than 
we are down in Washington because we want to hear all your 
testimony.
    All of your testimony will be put into the record. We all 
have read it, so I want to start introducing the witnesses.
    Today we will hear from a panel of witnesses. Your 
testimonies will proceed in the order I introduce you.
    I would like to introduce our first witness, Ms. Kathleen 
Rice. Ms. Rice is the first woman to be elected to District 
Attorney in Long Island's history. Prior to this position, Ms. 
Rice served as award-winning Assistant United States Attorney 
in Philadelphia. Today she will describe the gang situation in 
Nassau County and prevention and surplus suppression in her 
community.
    We will next hear from Mr. Michael Woodward, Chief of 
Police from the Village of Freeport. Mr. Woodward, native of 
Freeport, has been Chief of Police since 1997 and during his 
chamber he has maintained the availability of the Community 
Response Unit. The activities of this unit led Mr. Woodward to 
develop a Gang Awareness Suppression and Prevention Program 
which involves the community in addressing gang prevention and 
related crime. We will hear of this program by the Village of 
Freeport Police Department.
    Now I wish to recognize the distinguished--you'll 
introduce. Sorry.
    Next, I want to introduce Ranking Member Mr. Platts from 
Pennsylvania who will introduce our next witness.
    Mr. Platts. Thank you, Madam Chairperson.
    We're delighted to have with us Mr. Hayes, who served as 
Chief Executive Officer for Cayuga Home for Children since 
1995. And under his leadership, the program under his tenure 
has become a multi-service provider upon counseling support 
facilities throughout the State of New York and in 2001 had 
become the first certified public provider of Functional Family 
Therapy in New York State and the first provider of Multi-
Dimensional Treatment Foster Care in 2003.
    Mr. Hayes served the local community, New York State 
Children and Family Services Advisory Board, and was recently 
elected Chair of the Board of Directors in Community Home 
Association for advancement of evidence-based practice, which I 
know we'll hear about as part of your testimony as you've 
submitted in your written testimony. Mr. Hayes has a bachelor 
of arts in education from the State University of New York. 
We're delighted to have you here.
    Chairwoman McCarthy. Thank you, Mr. Platts.
    Our next witness is Sergio Argueta, Executive Director of 
S.T.R.O.N.G. Youth, Incorporated, who will describe the work of 
S.T.R.O.N.G. Youth, which is dedicated to educating and 
empowering the youth and community on the importance of 
resisting gang-related violence. Regarded as one of the leading 
experts on gangs and youth violence through New York State who 
speaks through experience, he was once a gang leader himself.
    I would like to ask Ms. Clarke to introduce our next 
witness.
    Ms. Clarke. Thank you. I have the honor of introducing Isis 
Sapp-Grant. I first met Ms. Sapp-Grant on a regular program and 
later became acquainted with her and her life's work as coach 
of New York City Councilwoman.
    After meeting with Ms. Sapp-Grant and learning about her 
commitment to those who are often outcast, I am proud to have 
her here. Ms. Grant is the founder and executive director of 
the Youth Empowerment Mission. She was born and raised in 
Brooklyn where she still resides today with her family. As a 
teenager, she was the leader of one of the worst young gangs in 
history. During this time her boyfriend was murdered in a gang-
related shooting. This dramatic incident made her realize there 
was only two things determining her life, incarceration or 
death. She made the decision to walk away from the gang.
    With the help of a local police officer and certain 
teachers, she was able to complete the difficult process of 
separating from the gang. She was able to overcome pressure 
from the gang and many other setbacks that changed her life. 
She not only walked away from the gang, but finished high 
school on time, graduated from college and went on to earn her 
masters of science and social work from New York University. In 
1995 she founded and monitored the Brooklyn Bedford-Stuyvesant 
neighborhood, and while there, sought to provide hope, vision 
and support to young people in high-risk situations,their 
families and communities. Under one umbrella, Ms. Sapp-Grant is 
able to bring together a diversity of individuals who believe 
in the organization's mission of redirecting gang membership.
    As part of YEM's outreach efforts Mrs. Sapp-Grant launched 
the Blossom Program for Girls in 2000 to address the needs of 
young women ages 11 to 21. Ms. Sapp-Grant received numerous 
awards including the 2006 opportunity for the Boys Hope Girls 
Hope Organization, an award in 2004 from the Redbook Magazine 
and the New York Hero award in 2002 from the Robinhood 
Foundation and Union Square Award in 2001.
    I would like to welcome Ms. Sapp-Grant.
    Chairwoman McCarthy. Thank you, Ms. Clarke.
    Our last witness is Mr. Chris Maddox. He once was an 
incarcerated gang member who left his gang and gang life behind 
him and is known from the Department of Social Services. Mr. 
Maddox works for the organization Help End Violence Now 
Families Outreach activities.
    I looked forward to learning of your experiences and 
hearing from you what we can do to keep our young people from 
heading down the dangerous and terrible mountain of gang 
violence.
    I want to thank all of you for being here today. One of the 
reasons we have these hearings is so that leaders and members 
can learn. We will be doing reorganization this year and we 
want to make sure that from whatever we hear from you today can 
be put into that reorganization.
    For those of you who have not testified before, don't be 
nervous. We're going to be a little more relaxed today than we 
are down in Washington.
    And I note, when we go to District Attorney Rice, that she 
will have to leave. She has matters that came up since we first 
got here.
    So with that, I would like to have Ms. Rice start.

           STATEMENT OF KATHLEEN RICE, NASSAU COUNTY
                       DISTRICT ATTORNEY

    Ms. Rice. Thank you. Thank you for your invitation to 
address the Committee on Education and for the Subcommittee on 
Healthy Families and Communities' interest in preventing gang 
proliferation and protecting our community's children.
    Like many suburbs around the country, gang proliferation 
and gang violence are on the rise in Nassau County. Our 
community is feeling the effects of their violence and our 
children are becoming prey to their growth. Neighborhood gangs 
homegrown and isolated to specific streets within communities 
wreak havoc on innocent bystanders and contribute significantly 
to an area's crime rate. These gangs destroy the quality of 
life and make it nearly impossible for a neighborhood to embark 
on redevelopment or attract sustainable jobs for its families. 
These gangs recruit local kids and often use incredible 
violence to defend their turf of the image of their gang.
    The answer to stopping gang proliferation is not a simple 
one. Many of the reasons gangs are growing in our community 
have regional, if not national, foundations. However, while the 
underlying issues may be broader than our jurisdiction, we 
believe we have an obligation to address their impact and an 
equally important obligation to develop local strategies that 
would protect our children.
    There are some traditional methods to gang prevention 
through enforcement that certainly have an impact on the 
results of gang activity. Legislative efforts to toughen 
sentencing guidelines for gang related-crimes have had some 
impact on gang violence over the years. For instance, we have 
supported legislation that would enhance the penalties for 
carrying an illegal weapon. We know from experience where their 
guns, there are gangs. We are looking forward to support future 
efforts that target as fervently the guns coming into our 
communities as we have the guns in the hands of children on the 
street.
    For some gang members, lengthy incarceration is the only 
option, especially in the case of a high-ranking member. This 
can severely disrupt, at least temporarily, the recruiting 
performance of the gang. Lengthy incarceration for the worst of 
the worst can also have a deterrent effect on those 
contemplating gang life or those contemplating their criminal 
involvement in a gang.
    In addition to the traditional methods of gang suppression 
that I outlined above, my office has advocated for the adoption 
of an intelligence-led policing model in Nassau County. This is 
relatively new. The key to this modern proactive approach is 
developing, analyzing and sharing gang intelligence among law 
enforcement. Gangs are sophisticated and generally have a 
strict hierarchy that is tough to penetrate for undercover 
operatives.
    Because of this, the gathering of information, electronic 
surveillance and gang debriefings, both after arrest and in 
jail or prison, become crucial to understanding and dismantling 
the core of a gang or one of its subsets.
    Our office was a leader in the push for the newly created 
Lead Development Center, a centrally located depository 
designed to collect, analyze and share crime data and 
intelligence with law enforcement on all levels. The LDC takes 
advantage of some of the most advanced technology today to 
aggressively target gang activity and proliferation. 
Intelligence sharing between local, state and federal 
governments is as crucial in the war on gangs as it is in this 
country's efforts to protect itself from terrorism. While 
traditional enforcement strategies are essential to combating 
gang violence and embracing intelligence law enforcement is 
critical to developing successful enforcement strategies.
    To curb gang proliferation, we must focus on reaching 
children before they join a gang. We must think outside the box 
and be ready to invest in children and in communities preyed 
upon by gang activity.
    I believe a local district attorney can have an impact on 
gang proliferation and can do things that provide children with 
opportunities and alternatives to gangs. We all know that 
children join gangs as a last alternative. As a community and 
as a law enforcement agency, we have a responsibility to 
provide our children with education and with positive 
activities while they are out of school. We have a 
responsibility to provide them with mentors and with role 
models from whom they could learn. We have a responsibility as 
a law enforcement agency to redirect them after an initial 
contact--often at a very young age--occurs. As a community, we 
have an obligation to provide them access to work and the 
ability to earn a living separate and apart from a gang 
structure.
    Finally, I believe law enforcement has a role to play when 
to comes to post-jail, re-entry programs for those willing to 
abandon the criminal life. A partnership between the 
communities, their stakeholders, law enforcement and private 
business is essential to our efforts to attack gang 
proliferation and to save the lives of at-risk youth in Nassau 
County.
    My office has embarked on several gang prevention 
initiatives. They are aimed at reaching kids before they are 
entrenched in a gang and before they have a criminal history.
    Through our community outreach team, we have sustained Gang 
Abatement Program teams in two of the five corridor towns 
suffering from gang and gun-related violence in Nassau County. 
The corridor is comprised of the Village of Hempstead, the 
Village of Freeport, Roosevelt, Uniondale, Westbury and New 
Cassel. These areas are disproportionately impacted by gun 
crime and gun violence. The GAP team is composed of a D.A. 
office, Nassau County Police Department's Task Force Against 
Gangs, local law enforcement, probation, local school, 
community and faith-based organizations, county service 
providers such as mental health and youth board and business 
owners. The idea is for at-risk youth to be identified through 
the people in the community. He or she is then connected to a 
prosecutor in my office. That attorney guides the youth to the 
service providers for evaluation. The hope is that the service 
providers determine what the youth needs in terms of education, 
job training, socialization skills, housing, counseling and 
medication.
    We have also partnered with schools in Hempstead and 
Westbury to offer summer school programs centered on athletic 
activities. These summer camps for children are a safe 
alternative to the street and gives our office a glimpse into 
the life of a child possibly in need of further proactive 
outreach.
    Our office provides mentors to at-risk children in middle 
school during the school year which is a program that allows a 
child to interact with a positive role model on a consistent 
basis.
    Most, if not all, gang members have had contact with law 
enforcement at an early age. What this tells us is that in 
addition to our enforcement strategies and our proactive 
identification strategies, we must have a plan for those who 
have had contact with the criminal justice system.
    I know my time is also almost up, but I want to talk about 
a program my office is looking to implement in which a youth 
facing jail time will have an opportunity to have his or her 
charges lowered or sealed if he or she finishes school and 
works toward their individual goals. The contracts are 
structured around the needs of each individual and rely on law 
enforcement asking about each participant. For many kids, this 
is the first time they have ever been asked this question and 
it goes a long way towards their eventual success. The contract 
program has already been launched in one community here in 
Nassau County and it is our intention to replicate throughout 
the county taking advantage of the services identified by the 
GAP teams.
    As I've said, we have taken on other projects that help the 
youth in the communities including job fairs where we give kids 
the opportunity to have work after school as a way of keeping 
them occupied and away from joining gangs. Traditional and 
increased multi jurisdictional commitment to procuring and 
sharing gang intelligence all play a role in disrupting gang 
activity and preventing inevitable violence that occurs after 
proliferation.
    If we are serious about protecting our children from gangs, 
we must be willing to embark on unconventional and proactive 
strategies. A successful approach must include a comprehensive 
plan for diversion for children experiencing their first minor 
brush with the system. Finally, we must be willing to implement 
bold programs to deal with post-jail re-entry and joblessness 
among those young adults convicted of a crime.
    As you can see, local prosecutors do have a role to play in 
these efforts and my administration will be committed to 
pushing the envelope and looking for aggressive strategies that 
will save the lives of our children and protect our 
neighborhoods.
    Thank you very much.
    [The statement of Ms. Rice follows:]

       Prepared Statement of Kathleen M. Rice, District Attorney,
                           Nassau County, NY

    Thank you for your invitation to address the Committee on Education 
and for the Subcommittee on Healthy Families and Communities' interest 
in preventing gang proliferation and protecting our community's 
children.
    Like many suburbs around the country, gang proliferation and gang 
violence are on the rise in Nassau County. Our community is feeling the 
effects of their violence and our children are becoming prey to their 
growth. Neighborhood gangs, homegrown and isolated to specific streets 
within communities, wreak havoc on innocent bystanders and contribute 
significantly to an area's crime rate. These gangs destroy the quality 
of life of their neighbors and make it nearly impossible for a 
neighborhood to embark on redevelopment or to attract sustainable jobs 
for its families. These gangs recruit local kids and often use 
incredible violence to defend their turf or the image of their gang.
    Nassau County and Long Island have also seen an influx of national 
and international gangs. National gangs, with strongholds in nearby New 
York City, recruit young children from all over the county to 
participate in their criminal activity and to fuel their enterprise. 
These gangs have tentacles in most towns, villages and neighborhoods in 
Nassau County. Their web extends throughout the New York City region 
and up and down the east coast. Many of their crimes involve state 
border crossing and many of their members have been a part of a variety 
of their gang chapters since their childhood.
    International gang activity has spread across Long Island like 
wildfire over the course of the last decade. These gangs have 
international origins and are usually nationality-specific. They 
migrate to areas of possible recruitment and are destroying our 
neighborhoods and ruining the lives of the promising young children 
they recruit.
    All of these gangs prey on our children. They use children for 
their most dangerous and violent acts. They prey on their innocence, on 
their education, and on their lack of alternatives.
    The answer to stopping gang proliferation is not a simple one. Many 
of the reasons gangs are growing in our community have regional, if not 
national, foundations. However, while the underlying issues may be 
broader than our jurisdiction, we believe we have an obligation to 
address their impact and an equally important obligation to develop 
local strategies that will protect our children.
    There are some traditional methods to gang prevention through 
``enforcement'' that certainly have an impact on the results of gang 
activity. While these strategies do little to prevent gang growth, they 
are important to protecting the quality of life of a neighborhood and 
can result in the `worst of the worst' being removed--temporarily or 
permanently--from a community.
    Legislative efforts to toughen sentencing guidelines for gang-
related crimes have had some impact on gang violence over the years. 
For instance, we have supported legislation that would enhance the 
penalties for carrying an illegal weapon. We know from experience: 
where there are guns, there are gangs. We are looking forward to 
supporting future efforts that target as fervently the guns coming into 
our communities as we have the guns in the hands of children on the 
street.
    For some gang members, lengthy incarceration is the only option. 
Especially in the case of a high-ranking member, this can severely 
disrupt--at least temporarily--the recruiting performance of the gang. 
Lengthy incarceration for the `worst of the worst' can also have a 
deterrent effect on those contemplating gang life or those 
contemplating their criminal involvement in a gang.
    Disrupting the recruiting efforts of gangs is the only way to truly 
decrease their proliferation. Disrupting their recruiting efforts means 
not only incarcerating and infiltrating their command structure, but 
limiting their ability to recruit children from our neighborhoods and 
families.
    In addition to the traditional methods of gang suppression outlined 
above, my office has advocated for the adoption of an ``intelligence-
led'' policing model in Nassau County. The key to this modern, 
proactive approach is developing, analyzing and sharing gang 
intelligence among law enforcement. Gangs are sophisticated and 
generally have a strict hierarchy that is tough to penetrate for 
undercover operatives. Because of this, the gathering of information, 
electronic surveillance, and gang debriefings--both after arrest and in 
jail or prison--become crucial to understanding and dismantling the 
core of a gang or one of its subsets.
    Our office was a leader in the push for the newly-created Lead 
Development Center, a centrally located repository designed to collect, 
analyze and share crime data and intelligence with law enforcement of 
all levels. The LDC takes advantage of some of the most advanced 
technology available today to aggressively target gang activity and 
proliferation. Intelligence sharing between local, state and federal 
governments is as crucial in the war on gangs as it is in this 
country's efforts to protect itself from terrorism.
    While traditional ``enforcement'' strategies are essential to 
combating gang violence, and embracing ``intelligence-led'' law 
enforcement is critical to developing successful ``enforcement'' 
strategies, to curb gang proliferation we must focus on reaching 
children before they join a gang. We must think `outside the box' and 
be ready to invest in children and in communities preyed upon by gang 
activity.
    I believe a local district attorney can have an impact on gang 
proliferation and can do things that provide children with 
opportunities and alternatives to gangs.
    Children join gangs as a last alternative. As a community, and as a 
law enforcement agency, we have a responsibility to provide our 
children with education and with positive activities while they are out 
of school. We have a responsibility to provide them with mentors and 
with role models from whom they can learn. We have a responsibility as 
a law enforcement agency to re-direct them after an initial contact--
often at a very young age--occurs. As a community, we have an 
obligation to provide them access to work and the ability to earn a 
living separate and apart from a gang structure. Finally, I believe law 
enforcement has a role to play when it comes to post-jail, re-entry 
programs for those willing to abandon the criminal life.
    A partnership between the communities, their stakeholders, law 
enforcement and private business, is essential to our efforts to attack 
gang proliferation and to save the lives of ``at-risk'' youth in Nassau 
County.
    My office has embarked on several gang prevention initiatives aimed 
at reaching kids before they are entrenched in a gang and before they 
have a criminal history.
    Through our community outreach team we have established Gang 
Abatement Program (GAP) teams in two of the five ``Corridor'' towns 
suffering from gang and gun related violence in Nassau County. The 
``Corridor'' is comprised of the Village of Hempstead, Village of 
Freeport, Roosevelt, Uniondale, Westbury and New Cassel. These areas 
are disproportionately impacted by gun crime and gun violence. The GAP 
team is composed of the District Attorney's Office, the Nassau County 
Police Department's Task Force Against Gangs (TAG), local law 
enforcement, probation, local schools, community/faith based 
organizations, county service providers such as mental health and the 
youth board, and business owners. The idea is for ``at-risk'' youth to 
be identified through the people in the community. He or she is then 
connected to an assistant district attorney in my office. That attorney 
guides the youth to the service providers for evaluation. The hope is 
that the service providers determine what the youth needs, i.e., 
education, job training, socialization skills, housing, counseling, and 
medication.
    It is my hope that we will soon expand the GAP program to 
communities outside of the Corridor and that several other programs 
identifying ``at-risk'' youth in the community will use GAP to address 
the specific needs of each child.
    We have partnered with schools in Hempstead and Westbury to offer 
summer school programs centered on athletic activities. With the help 
of these school districts, and some private and charitable resources, 
we've been able to make these programs successful and have had hundreds 
of participants during what is usually the most unstructured time of 
the year for any child. These summer camps offer children a safe 
alternative to the streets and give our office a glimpse into the life 
of a child possibly in need of further proactive outreach. Very often 
``at-risk'' children will be discovered in these programs and we can 
keep in touch with the child, their family and their school to provide 
additional assistance well after the summer is over. We anticipate that 
these summer camps will grow and that we will be able to expand into 
additional communities around Nassau County in the coming years.
    Our office provides mentors to ``at-risk'' children in a middle 
school during the school year. This program allows a child to interact 
with a positive role model on a consistent basis. Assistant district 
attorneys and support staff volunteer their valuable time to this 
mentorship program and we believe its effects are significant.
    Most, if not all gang members, have had contact with law 
enforcement at an early age. What this tells us is that in addition to 
our ``enforcement'' strategies and our proactive identification 
strategies, we must have a plan for those who have had some contact 
with the criminal justice system.
    These diversion efforts are crucial and require a partnership 
between law enforcement, private business, the child's school, 
community members and very often, the Department of Social Services.
    Our office is looking to implement a new program in which a youth 
facing jail time will have the opportunity of having his or her charges 
lowered or sealed if he or she finishes school and works toward their 
individual goals. The ``contracts'' are structured around the needs of 
each individual and rely on law enforcement asking each participant 
about their personal interests and goals. For many kids, this is the 
first time they have been asked this question and it goes a long way 
toward their eventual success. This individualized attention increases 
the likelihood of successful diversion and fosters real trust between 
law enforcement, community stakeholders and community members. It is 
this trust that will allow this program and others to succeed.
    The ``contract'' program has already been launched in one community 
and it is our intention to replicate it throughout Nassau County, 
taking advantage of the services identified by the GAP teams.
    While the vast majority of our programs strive to reach kids before 
they have a brush with the law or before they have a criminal 
conviction, it is incumbent upon us to develop a strategy for those who 
may not be hardened criminals and who we may be able to divert from 
their short criminal history. The final proactive strategy to 
preventing children and young men and women from joining gangs focuses 
on re-entry from jail or prison. Our office has launched an 
unprecedented effort to identify and target inmates eligible for this 
effort. The strategy partners inmates with a support network and a peer 
group familiar with their situation and equally eager to give up their 
criminal past and live a positive life.
    In addition to the ``enforcement'' initiatives, the proactive 
identification efforts (GAP), the diversion program, and our re-entry 
plan, it is critical for ``at-risk'' youth to be able to find work. It 
is equally imperative that those eligible for the re-entry program be 
partnered with local employers once they are out of jail.
    My office holds two job fairs per year that provide valuable 
manpower to local businesses and critical jobs to those looking to make 
an honest living and avoid the gang lifestyle. Local businesses are 
essential to this partnership and we're looking forward to increasing 
the size and the number of employers in the coming year.
    As I've said, traditional ``enforcement'' strategies and an 
increased multi-jurisdictional commitment to procuring and sharing gang 
intelligence all play a role in disrupting gang activity and in 
preventing the inevitable violence that occurs after their 
proliferation.
    But if we are serious about protecting our children from gangs we 
must be willing to embark on unconventional and proactive strategies. 
We must be willing to aggressively target ``at-risk'' children and 
provide them with education and access to a variety of work experiences 
and positive role models. A successful approach must include a 
comprehensive plan for diversion for children experiencing their first 
minor brush with the system. Finally, we must be willing to implement 
bold programs to deal with post-jail re-entry and joblessness among 
those young adults convicted of a crime.
    As you can see, local prosecutors have a role to play in these 
efforts and my administration will remain committed to pushing the 
envelope and looking for aggressive strategies that will save the lives 
of our children and protect our neighborhoods.
                                 ______
                                 
    Chairwoman McCarthy. Thank you, District Attorney Rice. 
Again, all your testimony will be put in so the committee can 
read everybody's testimony.
    Chief Woodward.

    STATEMENT OF MICHAEL WOODWARD, CHIEF OF FREEPORT POLICE 
                           DEPARTMENT

    Chief Woodward. Thank you, Congresswoman McCarthy. Thank 
you, Ranking Member Platts, Congresswoman Clarke for conducting 
this subcommittee hearing.
    Initially a West Coast phenomenon, basic street gangs have 
migrated throughout the United States. Once they are 
established in a major metropolitan area, they spread into the 
suburbs. Gang membership is comprised of all race, ethnic, 
gender and age groups. Race membership increases through the 
following reasons: Recruitment, peer pressure, overwhelmed with 
dysfunctional families, cultural differences, economic 
disparity, video game influence, a distorted government 
approach to dealing with gangs.
    Many athletes and entertainers who are affiliated with 
gangs, they are ready to observe flashing hand signs while 
performing or playing professional sports, thereby offering 
support for embracing the gang lifestyle. Gang violence has 
been lavishly depicted in movies and mainstream video. 
Specialized magazines such as Don Diva, the ritual street 
fighter are dedicated to promoting the gangster lifestyle. The 
magazine discourages anyone for being a witness for or 
cooperating with police. It also is demeaning to females.
    Gang members further the existence of their gang through 
graffiti, extortion, robbery, prostitution, drug distribution, 
weapons possession, assaults and murder. They have a chain of 
command, communication votes, dues and a charter describing 
their policies and procedures. They are adept at procuring the 
use of military weapons. They are potential for aligning 
themselves with terrorist organizations is a probable outcome.
    The immediate focus of the Freeport Police Department is to 
mitigate gang recruitment and operations with a Gang Awareness 
Suppression and Prevention Program. The program provides gang-
related information to the community for the focus on working 
with parents to protect their children from gangs.
    The awareness information provided includes some of the 
symbols, colors, tattoos and codes that indicates gang 
involvement. Parents are requested to be observant for any 
substantial change in the child's behavior, academic 
performance or attitude towards women. Suggestions to examine 
their child's room, along with any drawings, writings, art, for 
gang symbols are all incorporated in the Awareness program.
    The Freeport Police Department has its own program, which 
is a prevention and suppression program that works with the 
gang member's family. The program educates the family about 
their child's involvement in a gang and offers assistance or 
alternative programs to provide the family a social worker.
    To discourage the spread of gangs, there is an urgent need 
for personal and governmental organizations such as the police 
department, prosecutor's office and school districts to partner 
with communities that specialize in youth outreach and 
development. Their resources should be used to promote sense of 
gang awareness and educate the public on the signs and presence 
of gangs. The temporary absence of gangs throughout any 
community does not protect that community or address gang-
related crime.
    The Village of Freeport has such a committee. The committee 
is the Officials Working Group. This group has the Gang 
Awareness Program to warn PTAs to all seven schools in the 
Freeport school district.
    Our Guide to School and Community Activities; this guide 
provides parents with information on broad variety of 
supervised and structured activities categorized by their 
child's age and grade. The guide also includes a comprehensive 
list of community-based organizations along with a description 
for services they offer.
    The Search Institute Developmental Assets Circular was 
conducted of students in all even grades from 4th to 12th as a 
means to evaluate a student's strengths and needs. The results 
are currently being evaluated for the development of future 
programs.
    A parent expo was conducted. This is offered through area 
businesses and government agencies. The participants offered 
employment information and a description of available services. 
To prevent the growth of gangs, their recruitment efforts must 
be futile.
    Workshops and related programs that assist parents with 
child development should be funded and developed. This is 
especially true of preschool. Social interaction needs to be 
based on courtesy and respect.
    A common national language should be formalized to pursue a 
communication legislature. Many efforts were unsuccessful 
because of the failure to communicate. An essential component 
of communication that's often overlooked is to listen. As 
described by the Search Institute Development Asset survey, it 
is suggested to provide an understanding of the challenges 
facing the students. Every entity that has an interest in 
affording children an opportunity to realize their full 
potential free from gangs needs to have an understanding of 
where to focus their actions to help children the most. Youth 
mentoring or assistance programs sponsored by law enforcement 
organizations such as the Freeport Police Department, not-for-
profit programs or Employment Skills Workshops should be 
implemented.
    Other certified programs should also be created, employed 
and sustained. The failure to continue programs that are well-
received by any student beneficiaries leaves them with a sense 
of abandonment. Businesses and school districts should consider 
holding events such as the Freeport School Advisory Council to 
offer its students and fund advanced learning opportunities for 
them.
    The students of today are our hope for tomorrow. We need to 
invest in them now for a prosperous future free from gang 
violence. Thank you.
    [The statement of Chief Woodward follows:]

   Prepared Statement of Michael Woodward, Chief of Freeport Police 
                               Department

    I want to thank Chairwoman McCarthy, Ranking Member Platts and 
members of the Sub-committee on Healthy Families and Communities for 
holding this hearing to explore the gang prevention activities on Long 
Island to learn what might be replicated across the country. The 
reduction of gang recruitment efforts along with prevention of gang 
related crime is essential to the safety of all residents of our 
country. The FBI Long Island Office reports that the Mara Salvatrucha, 
or MS-13, gang has been deemed to be a ``High Threat'' to the northeast 
section of our country due to its involvement in murder, assaults with 
weapons, firearms possession, drug distribution, extortion from 
businesses, prostitution and robbery.
    The immediate focus of the Freeport Police Departments efforts to 
mitigate gang recruitment was a Gang Awareness Suppression and 
Prevention Program (GASPP). The demographics of the street gang 
population encompass a broad spectrum of race, ethnicity, gender and 
age and the program provides gang related information to parents, 
community members, school staffs, and the work force in an effort to 
reduce gang recruitment
    The awareness component of GASPP provides a description of various 
behaviors, and physical observations, which together or in some cases 
independently, are indicative of gang involvement. While the 
information provided in the GASPP brochure (attachment # 1) is 
representative of gang indicators, it is not all-inclusive. Symbols, 
colors, hand signs, clothing and gang codes consistently change due to 
Police awareness and fashion trends. The changes in team logos and 
colors of professional sports organizations are frequently the impetus 
for such changes.
    The prevention element of GASPP encompasses many youth-oriented 
activities. These include mentoring programs for elementary school 
students, along with a guide for parents that advises them of the many 
programs available to their child as an alternative to gangs. Community 
members and businesses are requested to engage in positive interaction 
with adolescents to encourage appropriate social interaction. Business 
owners, residents, and team coaches, are all requested to actively 
communicate with students who are engaging in inappropriate behavior. 
This is done in a manner that is courteous and provides positive 
instruction as a means of conveying the necessity of civil behavior and 
to further individual achievement. The School District Superintendent, 
together with high and middle school administrators, meet monthly with 
a Freeport Police Department command staff member to develop strategy 
to prevent gang activity in the schools and community based upon recent 
gang incidents. Informal sharing occurs between the school staff and 
police in close time proximity to any gang involved offense when 
students are participants. (Please see attachment #1 for detailed 
explanation of the GASPP program.)
    The suppression element of GASPP involves various law enforcement 
programs that are performed independently or in conjunction with 
community resources to discourage gang-related activity. Suppression 
efforts include partnerships with federal and state prosecutors, along 
with a task force made up of federal, state and local law enforcement 
members. Participation in the FBI Gang Task Force has provided 
additional law enforcement resources for conducting criminal 
investigations of gangs with a focus on their leadership. These 
investigations have resulted in the arrest and successful prosecution 
of sixty-five members of Mara Salvatrucha, or MS-13. Other gangs that 
are prevalent through out Long Island such as the Latin King, Bloods, 
and Crips are being investigated for crimes similar to the type 
committed by MS-13, by both the FBI Gang Task Force and local law 
enforcement. The Federal Court, without a prior conviction of a 
predicate felony, may not prosecute individual gang members, who are 
seventeen years of age or less. Therefore gang members who have a 
defense based on their age are prosecuted locally. The MS 13 members 
who were arrested were involved in the commission of various violent 
crimes that include dealing drugs, possession of firearms, rape, 
robbery and murder.
    Another cooperative gang suppression effort is a partnership with 
the Nassau County Probation Department that teams Police Officers with 
Probation Officers. The Probation Department Officers lead the teams 
that visit the residences of probationers who are gang members. These 
visits serve to ensure that the probationers are not in violation of 
any terms of their probation. This compliance program also verifies 
that gang members are not associating with other gang members or in 
possession of any firearms or drugs. It also provides a means to 
establish that they are abiding by curfew restrictions, thereby 
discouraging their participation in crime.
    Supplementing traditional gang prevention techniques, the Freeport 
Police Department has developed and implemented a Home Visit Program 
(HVP). The HVP has been designed to assist the parents of gang members 
by helping them recognize their child's association with a gang. This 
usually takes place prior to an arrest of their son or daughter. After 
a Police Officer has confirmed that an individual is involved with a 
gang and the information is passed on to the Commanding Officer of the 
Freeport Police Department's Community Response Unit (CRU). Two 
Detectives are assigned to conduct a home visit of the gang member's 
family to discuss their child's participation in the gang and advise 
them of the resources available to the family to help them discourage 
their child's further participation in the gang. The initial reaction 
to the police visit is denial of their child's involvement. Only after 
the detectives present the parents with evidence that includes gang 
indicators such as tattoos, limited clothing attire restricted by 
color, letters or product initials, observation of hand signing, and 
their child or friends, are not hearing challenged, along with 
drawings, and gang paraphernalia in their school bags or books do, the 
parents realize that their child is involved with gangs. In some 
instances, parents have relocated their son or daughter with relatives 
in other states or even other countries. Other parents have expressed 
frustration and a lack of hope with regard to their child's future. A 
small percentage are currently gang members themselves or don't see a 
problem with their child's involved gang membership. During testimony 
to the Nassau County Legislation Public Safety Committee, a Roosevelt, 
N.Y. Community Activist testified that the gang members in her 
neighborhood helped her grow up and she saw no problem with them 
hanging out with her children. She further stated that the only gang 
she was afraid of was the gang dressed in blue that drive white cars 
with blue and orange stripes. This was a reference to the Nassau County 
Police Department. To make the HVP more effective, a partnership has 
been established with the Freeport Pride Youth Outreach organization, 
that has resulted in providing the parents with follow up referral 
services and involvement by their social workers.
School Based Programs
    The Freeport Police Department Adopt-A-Cop Program is another 
activity that was developed to discourage youth from entering a gang. 
The Adopt A Cop Program was formulated to provide a positive informal 
interaction between students and police officers. The program requires 
the ``adoption'' of one police officer by each 4th grade class who will 
meet with their ``adopted'' Officer at the onset of the program and 
monthly thereafter throughout the school year. The officers who are 
involved in the Adopt A Cop program are volunteers. Of the ninety-two 
Freeport police officers, twenty-eight volunteer as Adopt A Cops.
    During the monthly meeting, officers conduct an open exchange of 
ideas and discussions with their students that centers around the fore 
mentioned goals and objectives. The officers also schedule tours of 
Police Headquarters and attend the school trips by their respective 
classes. At the completion of each meeting, each student composes a 
letter to their police officer including any comments or questions 
which pertains to the prior meeting, or other police related concerns. 
The officer responds with a general letter to the entire class, which 
is read to them by their teacher in between meetings.
    At the end of the school year, all of the fourth grade students, 
their adopted Police Officers and additional Police resources, 
celebrate the end of their school year together with Adopt A Cop Day. 
The day is filled with interactive presentations that include tours of 
a Police helicopter, Horse Mounted Officer, SCUBA and K-9 
demonstrations. Pizza, hot dogs, soda and ice cream are enjoyed by all 
of the day's participants. In addition each child is also given an 
Adopt a Cop tee shirt.
Goals and Objectives:
    The goals and objectives of the Adopt A Cop program are to:
    A) Encourage the mutually beneficial exchange of information and 
concerns between the Adopted Cop and his/her class.
    B) Provide a positive police officer role model, thereby dispelling 
negative police stereotypes.
    C) Educate children about their safety, and discuss methods which 
the children may use to avoid potential hazardous situations, including 
gang recruitment efforts.
    D) Discuss projects and non-violent forms of entertainment as a 
positive alternative to questionable media entertainment.
    E) Provide an avenue for children to discuss positive alternate 
means to resolve conflict, or express anger or frustration as an 
alternative to violence or alcohol/drug use.
    F) Provide insight into the function of police officers, and 
encourage students to consider law enforcement as a possible career.
    G) Contribute to the development of the children who participate in 
the Adopt A Cop program.
    Each of the officers who participate as Adopt-A-Cop Program 
volunteers receive the Freeport Police Department Community Service 
Award at the bi-annual award dinner.
    This program is currently in its eleventh year of operation.
    The Safe Schools Healthy Students grant had funded a similar but 
much smaller police mentoring program that was designed for middle 
school students, who were recognized to be considered ``at risk'' of 
gang involvement. This program had been proposed by the Freeport Police 
Department to the Safe Schools Healthy Students Program Committee 
Members. The committee included the Freeport School District, Nassau 
County BOCES, Operation Pride, Freeport Youth Outreach, and the South 
Shore Child Guidance Center. Middle school students were selected as 
the program participants due to a conscious belief by the program 
membership that this mentoring program would complement the Adopt-A-Cop 
program. Due to grant funding limitations, the program was limited with 
regard to the number of participants to achieve the greatest impact 
with limited resources. It was decided that middle school 
administrators and teachers would select those students they believed 
to be ``at risk'' of gang involvement for this program.
    Ultimately the program would include this group of middle school 
students who the committee members believed would benefit the most from 
interaction with police officers. The programs six police officers 
would interact weekly during a shared school based lunch meeting. On 
weekends, students and police officers would jointly participate in 
sports, trips, and movie outings. The officers received an hourly rate, 
which was substantially less than their police officer salaries as per 
diem school district employees. Unfortunately, in spite of its success, 
when the grant funding expired, the school district was unable to 
continue the program.
    Gang prevention efforts must also include educational programs that 
assist adolescents in achieving important developmental skills. In 
2004, the Freeport Police Department introduced an employment skills 
workshop designed to facilitate employment opportunities for middle 
school students. The workshop provides these students with insight into 
the job application process, interview, preparation and employment 
expectations. The information provided affords students the opportunity 
to be readily prepared to seek employment opportunities, thereby 
offering a counter balance to the limitations imposed by gang 
membership. Gangs grant status to members who are violent, possess an 
active and lengthy criminal record and embrace a disregard of societies 
value on life, individual responsibility and achievement. These traits 
are counterproductive to being successful in seeking employment. The 
aforementioned gang tenets preclude a chance for a successful job 
interview in contrast to the Employment Skills Workshop. (Please see 
attachment #2, Employment Skills Workshop).
Community Partnership
    The aforementioned police initiatives were presented as initial 
efforts to address the proliferation of gangs and related crime issues. 
Continuing in this vein in 2002, Mayor Glacken and the Board of 
Trustees with the Freeport Police Department, in conjunction with the 
Freeport school district, formed a consortium of various organizations 
and institutions that are associated with the Freeport community. The 
organization was formed and named the Officials Working Group (OWG) for 
the purpose of preventing gang related crime through the concerted 
utilization of new and existing resources. The main committee meets 
monthly, while the sub-committees meet during the month and report on 
their progress at the main monthly meeting.
    Representation on the committee rapidly expanded to include the 
Nassau County District Attorney's Office, Nassau County Youth Board, 
Freeport Parent Teachers Association (PTA), Hofstra University Liberty 
Partnership, Nassau County Coalition Against Domestic Violence, Junior 
Achievement, Nassau County Equal Opportunity Commission, Freeport 
Recreation Department, Freeport Pride, Education Tutorial Services, 
Struggling To Reunite Our New Generation (STRONG), along with 
representatives of various religious clergy and community advocates. 
The School Superintendent chairs the committee.
    In the beginning, the committee decided to focus on reducing crime 
by addressing street gang violence and related anti-social behavior in 
the schools and community. Committee members determined that the first 
objective would be to discourage gang recruitment efforts through 
community and parental awareness presentations. A revised gang 
awareness program was developed from the pre-existing Freeport Police 
Department Gang Awareness, Suppression & Prevention (GASP) program. The 
expanded Gang Awareness Program (GAP) is designed to inform community 
members, with an emphasis on parents of students, about how to 
determine if a person is involved in a gang through the identification 
of specific characteristics unique to street gang members. In addition, 
the presentation list the reasons people join gangs, along with a 
description of their rites of initiation and explanation of the types 
of crimes they are associated with.
    The most powerful allure of a gang is the sense of power and 
respect that is perceived to come with membership; the power of 
numbers, control of a neighborhood, and fear of their potential for 
committing random acts of violence, that is mistaken for respect. These 
misplaced beliefs, in conjunction with a sense of being family or 
brothers or sisters against other gangs and those who they perceive as 
being different, creates a sense of unity. In reality, the love, power, 
respect, and unity of gang membership is a path to arrest, 
imprisonment, injury, hospitalization, and death. A community 
involvement component of GAP lists the various resources available to 
discourage gang recruitment efforts. This includes involvement in 
alternative structural school activities, increased parental 
involvement in the education process, and access to professional 
counseling in schools via accredited private social outreach services. 
These prevention efforts, to be effective, must be in place to assist 
students as early as third grade.
    One OWG sub-committee has developed a bilingual ``Guide to School 
and Community Activities for School Age Children.'' The guide provides 
parents with a broad variety of supervised and structured activities as 
an alternate to idle time. The activities are listed according to a 
child's age and grade. (Please see attachment #3 for the current 
guide).
    A member of the OWG who was partnered with an officer from the 
Freeport Police Department Community Response Unit (cru) gave each GAP 
presentation, and by February 2004, every school PTA in the Freeport 
School District had a GAP presentation. Additional presentations are 
currently offered to any religious congregation or civic association 
willing to host the program. Unfortunately, most of the presentations 
that have taken place were poorly attended.
    The expansion of Police Department school-based mentoring programs, 
interagency collaboration and interactive resident/police 
communications respective to street crime or related activity, 
supplement the many initiatives described above. In conjunction with 
these efforts, the Police Department provides an assessment of the gang 
issues facing village residents along with insight into existing 
police-sponsored programs and enforcement operations. Group dynamics of 
the OWG participants have afforded the members an opportunity to 
enhance existing programs. As discussed prior, the Freeport Police 
Department ``Home Visit Program'' (HVP) has been changed to provide an 
additional resource. Now when CRU officers visit the homes of known 
gang members to offer assistance to the gang member's parent(s), an 
additional service is provided. Freeport Pride, a private youth 
outreach program, is working with CRU officers to include their social 
workers in the HVP to offer their assistance and alternate program 
awareness to the gang members family.
    Another sub-committee is tasked with researching new programs for 
students as a deterrent to gang recruitment. The committee members also 
arrange for former gang members or other motivational speakers to 
address student groups. One sub-committee has the responsibility for 
researching new law proposals that are designed to deter gang related 
crime. Other members are assigned to pursue the development of new 
initiatives and partnerships with like organizations outside Freeport. 
These include the; Hispanic Counseling Center, Family and Children 
Associations, Nassau County Youth Board, Nassau County Department of 
Social Services, and the Salvation Army.
    One of the new initiatives that have been implemented is a student 
survey. The survey was conducted in anticipation that the results would 
assist the committee with identifying areas of need that the committee 
would focus on to better assist students with meeting today's 
challenges. The framework of the Search Institute survey evaluates a 
student's sense of possessing skills or ``Developmental Assets'' in the 
following five categories.
    1) On going relationships with caring adults.
    2) Safe places and structured activities during non-school hours.
    3) A healthy start for a healthy future.
    4) Marketable skills through effective education.
    5) Opportunities to serve.
    Currently the OWG is evaluating the results of a Developmental 
Asset Survey that was given to even grade students from 4 to 12 grades. 
The Search Institute vision is to ``Have a world where all young people 
are valued and thrive''.
    While Freeport School students offered responses that are 
comparable to national average results, the specific asset deficiencies 
were disheartening. This is especially true with regard to the 
following;
    1) Positive family communications-only 16% locally and 28% 
nationally have this asset
    2) Have high expectations for themselves-56% locally and 48% 
nationally have this asset
    3) A sense of bonding to the school-38% locally and 52% nationally 
have this asset
    4) The ability to initiate peaceful conflict resolution-21% locally 
and 40% nationally
    5) A sense of feeling safe-42% locally and 51% nationally
    6) Have and understand family boundaries-36% locally and 46% 
nationally
    7) Experience positive peer influence-54% locally and 63% 
nationally
    8) Use time at home constructively-43% locally and 51% nationally
    9) Feel capable of exercising restraint-30% locally and 45% 
nationally
    The above survey results, while not specific enticements to gang 
involvement, help explain the allure of a gang as a surrogate family. 
The unity, love and respect that is perceived to be, or is missing in 
the family, creates a void that gang membership purports to fill.
    Family values once taken for granted as the foundation for child 
development have been seriously eroded. Inappropriate societal 
influences including entertainment media, video games, and magazines, 
such as ``Don Diva'', glorify violence and misogynistic views. These 
sources, combined with a news media, that sensationalizes horrific acts 
of violence, become difficult influences for parents and schools to 
overcome. In addition, a confused sense as to what constitutes 
traditional cultural values contributes to minimizing the reservations 
a person may have with regard to joining a gang.
    Multi-culturalism without support for the established cultural 
values & beliefs contributes to national confusion on how to address 
many of the problems facing society. A ``melting pot'' without a common 
language will become a ``Tower of Babble''. The ability to engage in 
effective communication is an essential element of any successful gang 
eradication effort. Confused or misunderstood communications frequently 
result in unattended and sometimes deadly consequences. I have 
witnessed native-born gang members openly discuss their distrust of 
non-English speaking members of opposing gangs during school gang 
prevention workshops.
    The allure of gang membership in some cases originates from a 
family member. In many cases either the father or sibling is the 
pathway to gang membership. The family legacy road to gang membership 
is more common within Hispanic gangs, where two or more generations who 
belong to the same gang may live together. Even families without a gang 
member within it are experiencing difficulty with raising their 
children due to the outside influences.
    In a recent disturbing trend, the Freeport Police Department has 
experienced an increase in domestic incident calls that involve parents 
who state that they are overwhelmed and feels incapable of dealing with 
the behavioral issues of their child. Most of these parents are looking 
for help and guidance. Others have stated that they don't care about 
their child and want the Police to take them and place them in jail or 
any place, just away from them. These children have been abandoned in 
place and will be at risk absent meaningful intervention by 
reinvigorated and accomplished government services.
    The effectiveness of the programs described herein is difficult to 
weigh. In spite of the efforts expended, gangs proliferate in 
surrounding communities, while their membership numbers remain 
relatively constant within Freeport. The gang recruiting that has been 
thwarted is due to the collective labors of the Freeport Police 
Department and its many partners. The total magnitude of the gang 
activity that has been prevented is an intangible. The obvious and 
consensus view is that more needs to be done on the federal, state and 
local levels.
    The most important next step is changing the culture to restore 
values that incorporate and encourage a sense of unity, respect, and 
devotion to guarantee the rights of others to be free from threats, 
intimidation or harm. Free speech issues must be weighed in the context 
of offense it was intended to cause. Restrictions on profanity do not 
restrict a person's ability to communicate. Conversely, our ability to 
communicate would be enhanced by the expansion of vocabulary for the 
purpose of engaging in persuasive communication without vulgarity.
    The family must plant courtesy and the skills of positive social 
interaction during infancy. Overwhelmingly, television has become the 
primary babysitter of youth. The social skills developed through this 
medium bare little resemblance to ``Sesame Street'' and are more 
representative of the ``Jerry Springer Show.'' Parenting skill programs 
and related educational programs must find a way into our early child 
development efforts. The subsequent benefit to focusing on early 
development skills and communication programs will achieve benefits in 
reducing domestic violence, providing academic, and skills learning, 
all of which are measurable outcomes. They also support a cohesive 
family unit as the primary deterrent to gang involvement. Furthermore 
we must work to ensure that all people are embraced and afforded 
opportunity as true equals. This is a daunting task that must be 
implemented as soon as possible. Anything less than the timely 
implementation of these principles will guarantee that our gang 
prevention efforts will be as successful as the current ``war on 
drugs''.
                                 ______
                                 
    Chairwoman McCarthy. Thank you.
    Mr. Hayes.

STATEMENT OF EDWARD HAYES, CHIEF EXECUTIVE OFFICER, CAYUGA HOME 
                          FOR CHILDREN

    Mr. Hayes. Thank you for inviting me.
    Cayuga Home for Children is a New York State provider of 
services for at-risk youth and families.
    As part of our commitment to be accountable to both those 
we serve and those who fund services, in 2001 we began 
providing evidence-based services. My written statement 
outlines these.
    Our world has changed. In the past, providers of services 
for children and families only had faith and anecdotes to 
support the effectiveness of their work. Today, research such 
as the University of Colorado at Boulder's Blueprints for the 
Prevention of Violence can show if a program is effective or 
not; not only effective when we work with the youth and family, 
but effective after we finish working with the youth, 
effectively achieving outcomes such as avoiding out-of-home 
placement, avoiding arrest, avoiding gang involvement and the 
attending and graduating from school.
    Programs such as Functional Family Therapy and 
Multisystemic Therapy have proven effectiveness in working with 
youth headed for out-of-home placement and keeping them safely 
living with their families in the community. In Monroe County 
in Rochester, New York, we work with youth who have not 
succeeded in prevention programs and are mired in gangs and 
violence. Over 60 percent of them complete these programs and 
in the month afterwards stayed successfully in the community.
    We operate Multi-Dimensional Treatment Foster Care in both 
Central New York and in New York City. The youth we work with 
come to us as an alternative to being incarcerated in state 
facilities and failed a multiple, congregate care placement. 75 
percent of these youth complete the program. Our limited 
tracking has at least two-thirds avoiding replacement, a stark 
contrast to the 50 percent of congregate care youth who studies 
show recidivate within a year of discharge.
    I am not going to tell stories of youth and families, even 
though I could because too often providers tell stories as 
opposed to talking about post-end-of-intervention outcomes. The 
next time a provider tells you a story, ask them where the 
youth was one year after the provider worked with them and ask 
them the same question about the other youth who were in the 
program that they're not telling the stories about. If the 
youth is not living successfully in the community, what good 
has been accomplished?
    Our need to get past stories is particularly important 
because, despite proven success of these programs, funders and 
providers have been slow to embrace them continuing with 
treatment as usual, even if treatment as usual is not proven 
effective or even proven ineffective.
    In addition, all the programs promoted by the Blueprint 
Study are wonderful programs. They do not cover many of the 
issues in populations we face every day. We must find ways to 
increase research to increase our knowledge of what works and 
what doesn't work, particularly in the area of helping youth 
avoid gang involvement and not becoming re-involved with gangs. 
And we must create a culture where providers are accountable 
for providing programs of proving effectiveness.
    To help this occur, I offer these suggestions. First, 
juvenile justice, child welfare, youth development, substance 
abuse, all of these issues are working with the same youth. 
Let's break down the walls or silos between these categories 
with hamper our work.
    Second, what we are doing should be an investment, not a 
mere transfer of funds. As with any investment, we need to 
expect a return. Let's spend money on programs that research 
shows can produce that return, not on programs that cannot show 
effectiveness.
    Third, give the states categorical eligibility and 
flexibility in using federal IV-E dollars. Currently 
eligibility is determined individually, dollars are tied to the 
1996 definition of poverty and dollars are tied to out-of-home 
care. Particularly working with kids in the community that are 
involved in gangs, we need money that can work with these kids 
in the community. And let's also look at continuing funding 
past the age of 18. After all, you and I have supported our 
kids past 18. I have a 29-year-old I'm still paying.
    As part of this shift, require that states use evidence-
based or promising practices when they exist or programs that 
are working to research their effectiveness when the former 
does not exist. Insist all funded programs track post-
discharge, real-life outcomes.
    As evidence-based practice lessens of need for out-of-home 
care, this will save both federal and state tax dollars, will 
better serve our youth and families.
    Finally, increase federal spending in research on child 
welfare and juvenile justice programs to establish whether or 
not these programs are effective. Look to find programs being 
incubated in the field to address populations and issues where 
there are currently no evidence-based programs.
    Thank you for this opportunity and a chance to talk about 
this work. We have to understand doing is important but only if 
what we do is effective. If we could determine if what we're 
doing is effective, let's work effectively. Thank you.
    [The statement of Mr. Hayes follows:]

  Prepared Statement of Edward Hayes, Chief Executive Officer, Cayuga 
                           Home for Children

    My name is Edward Myers Hayes. I am Chief Executive Officer of 
Cayuga Home for Children, a New York State provider of services for at-
risk youth and families.
    As part of our commitment to be accountable to both those we serve 
and those who fund services, in 2001, we began providing evidence-based 
services. In 2001, we became the first New York State agency certified 
to provide Functional Family Therapy (FFT). In 2003, we became the 
first New York State agency to provide Multi-Dimensional Treatment 
Foster Care (MTFC). In 2005, we began to provide Multisystemic Therapy 
(MST)--becoming one of the first and only agencies to provide all of 
these Blueprint services for youth and their families.
    Our world has changed. In the past, providers of services for 
children and families only had faith and anecdotes to support the 
effectiveness of their work. Today, research--such as the University of 
Colorado at Boulder's Blueprints for the Prevention of Violence--can 
show if a program is effective or not. And I don't only mean effective 
while we work with a youth or family but truly effective--if the 
program helps the youth live more effectively and achieve outcomes that 
matter--such as avoiding out-of-home placement or replacement, avoiding 
arrest, and attending and graduating from school.
    Programs such as Functional Family Therapy (FFT) and Multisystemic 
Therapy (MST) have proven effectiveness in working with youth headed 
for out-of-home placement and keeping them safely living with their 
families in the community. We operate FFT in five Central New York 
counties and operate MST in three CNY counties. In Monroe County--where 
Rochester is--we operate both programs and work with youth who have not 
succeeded in other prevention programs. Many of these youth are mired 
in gangs and violence. Over sixty per cent of them complete these 
programs and--in the months afterwards--stay successfully in the 
community.
    We operate Multi-Dimensional Treatment Foster Care (MTFC) in both 
Central New York and in New York City. In New York City, the youth we 
work with come to us as an alternative to being incarcerated in state 
facilities. Upstate, we are working with youth with multiple, failed 
congregate care placements. 75% of these youth complete the program. 
While our ability to follow youth's post-discharge progress is limited 
due to a lack of resources for doing this, our limited tracking has 
two-thirds avoiding replacement--a contrast to the 50% of congregate 
care youth who studies show recidivate within a year of discharge.
    I am not going to tell stories of youth and families even though I 
could because too often providers tell stories, as opposed to talking 
about post-end-of-intervention outcomes. The next time a provider tells 
you a story, ask where the youth was one year after the provider worked 
with them. And ask the same question about the other youth in the 
program. If the youth is not living successfully in the community, what 
good was accomplished?
    Our need to get past stories is particularly important because 
despite the proven success of these programs, funders and providers 
have been slow to embrace them--continuing with treatment as usual--
even if treatment as usual is not proven effective or even proven 
ineffective. Indeed, evidence-based is becoming increasingly watered 
down by providers stuck in the old and funders who accept program 
statistics as evidence of effectiveness.
    In addition, while the programs promoted by the Blueprint study are 
great, they do not cover many of the issues and populations we face 
every day--in child welfare, in substance abuse treatment, in assisting 
homeless youth, in independent living, and more. We must find ways to 
increase research into the work being done with our children and our 
families to increase our knowledge of what works and what doesn't work. 
And we must create a culture where providers are accountable for 
providing programs of proven effectiveness.
    To help this occur, I offer these suggestions:
    <bullet> Juvenile justice, child welfare, youth development, and 
substance abuse are all working with the same youth. Break down the 
silos or walls between these categories.
    <bullet> What we are doing should be an investment--not a mere 
transfer of funds. As with any investment, we need to expect a return. 
Let's spend on programs that research shows can produce that return--
not on programs that cannot show effectiveness.
    <bullet> Give the states categorical eligibility and flexibility in 
using Federal IV-E dollars. Currently eligibility is determined 
individually, dollars are tied to the 1996 definition of poverty, and 
dollars are tied to out-of-home care. And maybe even continue funding 
past age 18. After all, you and I kept supporting our kids past 18--
didn't we?
    As part of this shift, require that states use evidence-based or 
promising practices when they exist or programs that are working to 
research their effectiveness when the former does not exist. Insist all 
funded programs track post-discharge, real-life outcomes.
    As evidence-based practice lessens the need for out-of-home care, 
this will both save federal and state tax dollar while better serving 
youth and families.
    <bullet> Increase Federal spending on researching social welfare 
and juvenile justice programs to establish whether programs are 
effective. Look past the Blueprint programs to find the programs being 
incubated in the field to address populations and issues where there 
are currently no evidence-based programs.
    As my staff and Board know, I can talk forever. Talking only five 
minutes is hard.
    Thank you for this opportunity. I would welcome the chance to talk 
more about serving at-risk children and families. Thank you for your 
stewardship of them.
                                 ______
                                 
    Chairwoman McCarthy. Thank you.
    Mr. Argueta?

STATEMENT OF SERGIO ARGUETA, EXECUTIVE DIRECTOR OF S.T.R.O.N.G. 
                      YOUTH, INCORPORATED

    Mr. Argueta. Good morning.
    I have to tell you, it's truthfully a pleasure being here 
this morning. Although it's cloudy outside and it's raining and 
I'm not very religious, I have to finally say alleluia. The 
reason is because if 7 years ago someone were to tell me 
members of Congress were to be coming to a local municipality 
to discuss the P word--that word prevention--I would have said 
it will never happen. The reason why is because way to many 
villages and municipalities and members of our government and 
school boards and local leaders were ashamed of this word 
gangs, and they felt it was okay so long as we never addressed 
it, as it was okay so long as it was only affecting or not 
affecting a particular segment of our community.
    Nonetheless, now we know it's not only in urban settings 
but it's in rural areas, not just huge municipalities but also 
small rural areas where it's affecting anyone and everyone, as 
you stated.
    I'm here this morning representing not only myself and my 
organization, but most importantly, millions of parents that 
cry themselves to sleep because they lost their child. I'm here 
representing those grandparents that actually had to deal with 
the horrible feelings of burying their grandchild or great-
grandparents burying their great--grandchildren. It's something 
that really shouldn't happen. I'm also here representing the 
gang-involved youth who are on the streets currently because 
there is a serious lack of opportunity.
    Today, focusing on this particular theme, thousands of kids 
are thirsty, thirsty for opportunity, thirsty for someone to 
give them a hand and guide them in the right direction. As the 
Congresswoman stated in her opening statement, whenever you ask 
a kid what do they want to be when they grow up, regardless of 
Hempstead, Roosevelt, or uptown, or communities with a lot of 
affluence, you always hear the same responses. I want to be a 
lawyer, I want to be a doctor, nurse, fireman, police officer. 
You never hear, ``I want to be dead by the time I'm 14 years of 
age.'' you never hear, ``I want to be incarcerated.''
    So why is it we're losing so many people to this plague? We 
know we're losing the majority in the junior high school years. 
Therefore, why aren't we addressing their needs at an earlier 
age? Why are we not working with them in the 4th, 5th, 6th 
grades, bringing them closer to the realities?
    Everyone wants to point the finger at hip hop. Everyone 
wants to point out particular magazines. This isn't something 
new. The modern day 50 Cent was looked at with as much disdain 
as Elvis Presley was in the '60s and that outlaw image of James 
Dean. So it's not new.
    We need to understand this isn't affecting just one 
community. Whenever we look at the word gangs and any 
immigration issue, now people are quick to point to 
immigration. You know it what it was, it is an immigration 
issues. But it started back in the 1800s when these poor Irish 
youths were getting off these boats that arrived and then those 
when who arrived a little earlier and felt this was theirs.
    If we know we were dealing with this plague over 200 years, 
why haven't we come up with some real effective strategies? 
That's where S.T.R.O.N.G. comes in.
    I started this organization 7 years ago. The reason I 
started this organization is because after the death of a young 
lady, after the death of a relative and personally losing two 
friends, and a third going to prison for life I finally woke 
up.
    It was an epiphany that happened in front of other people, 
dozens of television cameras and our elective speakers and 
elected community leaders stood up in front of these cameras, 
and you know what they did? They declared a war on gangs. They 
said we need more law enforcement, we will not be held 
accountable. And at that particular moment, I realized our 
elected officials didn't have a clue. The bars and criminal 
justice system had not been working. If it was effective, 
believe you me that the amount of money and time we have been 
investing in that system, we wouldn't have a problem.
    So we decided to develop a counterculture to actually start 
addressing the needs of these youth, focus on the things 
previously mentioned. The family. One of the things I was able 
to get out of the gang life was going to a school.
    I went to Nassau County Community College and I'll never 
forget my first experience of going to Albany for a conference. 
While up there, I saw something that really blew my mind. Here 
I was trying to escape gang life, and I see these young 
brothers and sisters wearing distinct colors, throwing up hand 
signs and it was guys and girls and at the end of the night 
there was a big fight and these two different groups got into 
it, people were running. On my way back to the hotel one of my 
friends comes up to me and says, ``Sergio, what's wrong with 
you.''
    I said, ``I can't believe there's gangs in college.'' 
someone takes a look at me and laughs. They told me those 
aren't gangs, those are fraternities and sororities. I say, 
``Wow.''
    So if you want to be a part of something, you go through an 
initiation, if you want friends in a particular place where you 
feel all alone. But you do it in the streets, you're considered 
a gang member. But if you do it in colleges and universities 
across this country, it's okay.
    What if we provided that? What if we actually reached out 
to our kids and said, ``Listen, we love you, care about you, 
want you to succeed.''
    Beyond the moving of lips, actions speak louder than words. 
People have the ability to put things down on paper when they 
have the resources. But actions speak louder than words. The 
fact of the matter is our kids are not hearing this. Why? 
Because we're not acting the way we speak.
    S.T.R.O.N.G. developed a chapter and we're going to schools 
and we want to work with the most ``high-risk'' population. We 
want to work with gang members because we find that prevention 
programs are those that work with the honor students. Well, 
guess what? They don't really need us. There is a reason why 
those youth are already honor students. They have a system.
    We need to work with those kids on the top of that list of, 
``I want you out of my building'' because that kid that gets 
kicked out of school is not acting as bad as they are in the 
community, they are staying there. I want to work with that 
youth that's coming out of these correctional institutions and 
placing them in a facility with juveniles and that's what we 
need to work with.
    This idea that working, you know, preventing these kids 
from further getting involved in the criminal justice system 
but only working with the elite, cream of the crop has not been 
effective.
    So that's what we do. We've implemented a program where we 
noticed, we've traveled throughout the state, northeast region 
for that matter, and I can tell you that these kids learned so 
much and are sending us letters saying how a simple 45 minutes 
or an hour of assembly truly changed their lives.
    Guess what? If you join a gang there are three options. 
Either you'll end up in prison, end up in the hospital or end 
up in a cemetery. And these are the realities of that 
lifestyle.
    We bring victims, one being 19 years of age who was shot 
and is now confined to a wheelchair. We work with mothers who 
lose their children and they come and express their sorrow to 
these young kids who think what they see in a rap video is 
reality. No. It's not real.
    We also have a counseling component where we actually hired 
a full-time therapist to work with the most at-risk kids and 
actually complement these same counselors that we have in the 
school buildings.
    The best way to address these issues is a therapeutic 
approach. We know this. But it has to be more than just 
philosophy and, you know, particular specialist that comes up 
with it. I can take a textbook and diagnose someone but guess 
what? You can't diagnose the emptiness inside of a heart. No 
literature will tell you that. That's what we're missing in so 
many of these programs.
    We have a girls component similar to what Ms. Isaacs does. 
She is one of the most amazing workers in this field. It has to 
do with the fact that the fastest growing prison population at 
this time are females, particularly African-Americans, Latinos. 
And we need to address their issues as gender-specific, the way 
they deal with those particular issues.
    So we started a girls group. And we've also started 
S.T.R.O.N.G. University, where we've taken gang-involved 
individuals who served time that have been shot, that have been 
stabbed, that didn't get million-dollar record deals and 
actually know to come out and share with the same youth about 
the realities of that lifestyle. So there you have emerging 
issues of intervention and prevention.
    Guess what? The real specialist on gangs are not sitting at 
this table. The real gang specialists are still on those street 
corners. That particular kid standing on that corner has the 
ability to pull together 30, 40, 50 individuals and get them to 
go do drive-by shootings and convict crimes, for that 
particular gang has leadership ability. How do I know? That was 
me.
    Two years ago I lost two friends and felt I had nowhere to 
go. Now I have an associate's degree, I have a bachelor's 
degree, I have a master's degree. Now I'm a homeowner, I am the 
executive director of one of the leading gang-prevention 
agencies in this region. And I can honestly tell you, I mean, 
the question is where do you think I would have benefited my 
country or my part of the region most? Locked up in prison or 
actually doing what I do.
    We have so much to do and although Mr. Hayes and Chief 
Woodward yielded their time to me, I'm going to stop just shy 
of Congresswoman McCarthy banging that gavel.
    I will tell you this if we have so many kids we've lost to 
this criminal justice system, if we have so many youth who are 
losing to the street plague, what are we doing? We need to ask 
ourselves what are we doing?
    Thank you.
    [The statement of Mr. Argueta follows:]

      Prepared Statement of Sergio Argueta, Executive Director of 
                        S.T.R.O.N.G. Youth, Inc.

    Dear Honorable Congresswoman McCarthy and Members of Congress: I 
begin by thanking you for taking the time out to address this very 
important issue. The issue of gangs is one that has been devastating 
many of households across America, and the suburbs of Long Island are 
no exception.
    I come to you this morning representing the countless youth lost to 
the plague of gang violence throughout Long Island and the United 
States of America. I represent the millions of mothers and fathers that 
cry themselves to sleep at night because they have either lost their 
children to the senseless gang violence or the criminal justice system 
as a result of gang involvement. I am here representing the countless 
grandparents that have had to deal with the unnatural results of 
burying a grandchild due to the unprecedented accessibility to guns on 
the streets, while having limited accessibility to employment and 
alternatives to gang life. Most importantly I represent the millions of 
youth that are crying out, hoping to be saved from this epidemic.
    I have been to hundreds of schools throughout the North East 
region, and no matter how hard the living conditions in that community 
might be, whenever a child is asked what they would like to be when 
they grow up, the answers are almost always synonymous. ``I want to be 
a lawyer * * * a doctor * * * an athlete * * * a nurse * * * a fireman 
* * * a police officer.'' Some of these kids have the audacity to go as 
far and say, ``I want to be President of the United States of America 
someday.'' The audacity of these young people to think they can achieve 
whatever they desire is something that leaves adults wishing they still 
had the ability to dream.
    Regardless of their race, their socio-economic background, their 
religious background, or any other socially structured categorical 
framework we can place human beings under, these answers are always the 
same. I have never heard a child say I want to be a killer, a drug 
dealer, a murderer, a gang member. If this is the case, why are we 
losing so many children to gang involvement?
    It is true that popular culture is currently glamorizing this 
lifestyle at unprecedented levels, but it is also true that this is not 
new. Although people like to point the finger at the Hip-Hop industry 
as the root cause for the increase in youth/gang violence and the 
increase in gang membership, this is not the only genre of music or 
entertainment that commercializes the criminal lifestyle. American pop 
culture as has always glamorized outlaws and that imagery as something 
cool. The modern day 50 Cent and Rap music is looked down upon by an 
older audience or those that don't listen to this genre of music with 
as much disdain as the parents of the 60's looked down upon Rock & Roll 
and Elvis Presley. The violence in our media is desensitizing to the 
young mind. Whether it be video games where you get more points for 
killing and robbing people, or popular TV Shows such as the Sopranos 
where a murderous mafia crime boss is often portrayed as someone with a 
lot of money, power, ``respect'', influence, who is a ladies man, we 
must look at all forms of entertainment.
    We must realize the fact that this generation is seeing more 
violence on television, hearing more violence on the radio waves, and 
playing more violent video games than any previous generation in 
history. If you add to that the fact that more kids are being raised in 
single parent homes and the accessibility to guns is on the rise, in 
conjunction with limited accessibility to youth employment and programs 
that actually challenge our youth culture, we are left with a recipe 
for disaster.
    When I decided to disengage from gang life, I decided to try the 
road less traveled in my neighborhood. I decided to try and further my 
education by enrolling at Nassau Community College. I remember 
attending my first collegiate state wide conference. I was dumbfounded 
with what I saw. I remember seeing these groups of young men and women 
wearing distinct colors, insignias, and throwing up hand signs. They 
had choreographed handshakes, and at the end of the night these two 
different groups got into a violent altercation. Police had to be 
called, and people were injured. I remember looking in awe as someone 
asked me what was wrong and I stated that I could not believe that 
there were gangs in college. The person I was talking to laughed at me 
and said ``those aren't gangs, they are fraternities and sororities.''
    That's when it all came into focus. If a young person joins a group 
by which they have to go through an initiation, and they have common 
colors, throw up hand signs, and do so because they want to be a part 
of a group or for ``networking'' purposes, and they attend a college or 
university, it is called a fraternity or a sorority. Yet, if youth do 
the same thing in the community because they don't have access to 
higher learning or because they come from a community with failing 
schools and limited resources, or broken homes looking to be a part of 
something, it is called a gang.
    S.T.R.O.N.G.'s sole purpose is to provide alternatives to gang life 
in an effort to save our youth. We are not ``anti-gang,'' we are anti 
gang and youth violence. We are anti drugs; we are anti illegal 
activity that is destroying our community. We do not have anything 
against the gang involved youth, but seek to address the behavior in an 
effort to redirect young people.
    We have established STRONG Chapters in the Uniondale & Roosevelt 
School District. The concept aims to build a counter culture to gang 
life. In order to deter gang membership it is necessary to provide a 
positive peer groups to replace gangs. It is mandated that all youth 
involved in our program are identified as either gang involved or 
affiliated by school administrators, self identification, law 
enforcement, or other source of referral, or be siblings of gang 
involved youth. Our goal is to provide them with an alternative to the 
street gang.
    This program focuses on discouraging gang involvement by helping to 
develop positive life skills and peer groups, as well as providing them 
with a forecast of what the future holds for them should they choose a 
negative lifestyle over a positive one. We currently have over 130 
youth enrolled in our chapters, and many school districts are 
interested in implementing our program. As a result of our data 
collection, this program will be evidence based by the end of the year. 
This program has enabled us to further develop other initiatives and 
strategies aimed specifically at reducing gang involvement and violent 
gang/gun crime. Below is a synopsis of some of our other programs.
    STRONG TALK: STRONG provides workshops reaching thousands of youth, 
adults, and service providers throughout the North East on contemporary 
issues related to youth violence and gangs. We are speaking in 
elementary school classrooms with a focus on educating the young people 
on the dangers of being gang involved and following the destructive 
path.
    STRONGIRLZ: Is an all-girls group where participants discuss gang 
issues and other contemporary issues as they pertain to females and 
violence. Females are the fastest growing prison population at this 
time and they have often been overlooked. The concept is to empower 
gang involved females with the tools, competencies and options 
necessary to avoid further gang involvement.
    BUILDING STRONG YOUTH: Many youth find themselves feeling like 
there is no way out of gang life. This is an employment placement and 
career development program focused on intervening with youth involved 
in gangs. Upon intake, a psychosocial and employment assessment is 
implemented to determine youth needs, goals, and career and employment 
aspirations.
    Services Provided: Job Placement & Sheltered Employment-youth are 
matched to employment opportunities congruent to their career interest 
and capacity. Some youth find it difficult to adhere to the demands of 
a job. Therefore sheltered employment is provided to selected 
participants as a bridge to other employment opportunities. Worksites 
are chosen to cultivate basic work ethics and skills.
    S.T.R.O.N.G. University is a program that was created for the most 
entrenched gang involved youth who are unemployed, not enrolled in any 
educational or vocational program, served time in a correctional 
institution, and have a history of gang involvement. After undergoing a 
rigorous training process they design and implement presentations on 
youth violence and gang prevention in schools and communities 
throughout New York State. Participants also help STRONG develop and 
organize other gang prevention and intervention initiatives. Our goals 
it to take these current gang members that are trying to redirect their 
lives and use them as our ambassadors for peace and an end to violence 
in the community. These young people whom have been shot, stabbed, 
incarcerated, kicked out of their homes, etc. serve as real life 
examples of what happens if you remain involved in a gang. Most 
importantly however, they serve as an example that change, no matter 
how impossible it might seem, is very much a possibility should they 
choose to change.
    S.T.R.O.N.G. is currently looking to replicate an effective 
intervention model from Los Angeles California. We will be hopefully 
launching a STRONG SCREEN Program before the end of the summer. The 
introduction of the STRONG SCREEN Program will provide gang involved 
youth with an entrepreneurial experience that will allow them to learn 
tangible/marketable employment skills, expose them to a competitive 
vocation and viable career option, as well as provide sustainability in 
funding for S.T.R.O.NG. Youth, Inc.
    The efficacy of this model and promotion of this type of industry 
cannot be overstated. HOMEBOY INDUSTRIES was developed through a screen 
printing business and thrives because of their Youth Enterprise Model 
which successfully provides gang members with the work ethic and 
competencies dictated by the corporate world! Founder and Executive 
Director Father Greg Boyle, exemplifies the type of ingenuity it will 
take to create programs that are effective at reducing crime and gang 
involvement while engaging a hard to reach population. We have hosted 
Father Boyle and his staff on many occasions, and have visited with 
them in Los Angeles. It has been a great experience to not have to 
recreate the wheel and have the guidance of someone who has a model 
that works.
    As stated by OJJDP: ``The most effective intervention programs use 
employment, training, school-to-work, access to higher educational 
opportunities, use of community-based organizations and consistent 
contact.'' In keeping with this framework, this initiative recognizes 
youth have inherent strengths to be cultivated given the appropriate 
approach, venue and opportunity. Integral to the services is access to 
support services, educational/vocational opportunities, life skills 
education, and career awareness. Another critical challenge factored 
into this model is the development of programs that prepare youth for 
jobs while also meeting their developmental needs.
    As you can see, in an effort to truly be effective and save 
America's youth and communities from the devastating effects of gang 
involvement we need to come up with innovative ideas that merge 
prevention and intervention strategies. It is vital to provide youth 
with alternatives to gang involvement if we want to be effective in 
reducing gang involvement and activity.
    In closing, I must emphasize the fact that it is easier to get a 
young person to never join a gang, than it is to leave a gang once they 
are already entrenched in the criminal lifestyle. Although intervention 
is extremely important to the success of any gang reduction program, 
more of our energy needs to be channeled on developing innovative gang 
reduction curriculums and activities aimed at educating youth in 
elementary schools. The days of extra home work help and sport programs 
are simply not addressing the needs of these youth, and as a result it 
is vital that we adopt new tools focused on gang prevention.
    Whenever gang members tell me there gang is a family, I tell them 
they are right. They often look at me in shock and I continue to tell 
them that they are an abusive family. They are the kind of family that 
beats you down from the moment you join. You are abused physically, 
mentally, you are stripped of hope and a future, and you are raped 
emotionally and transformed into someone you are not meant to be.
    Gangs cannot provide lawful employment, vocational programs, 
educational degrees, and counseling. They could never nurture and care 
for young people in an effort to get them to live productive lives. We 
on the other hand, can. Yet currently we are sending our youth to new 
prisons and old schools. We are providing higher salaries for law 
enforcement officers without bachelor's degrees, than for teachers and 
social workers in our schools with graduate degrees. We are expanding 
local county jails, but have no community centers that can keep our 
kids occupied in productive programs. What does it say about us as a 
nation, when we make accessibility to corrections so much easier than 
learning institutions at a higher cost?
    We declared a war on poverty. That didn't work out too well. We 
declared a war on drugs. We have yet to win that war. Let's not declare 
a war on gangs. Instead, let us declare peace on our youth. After all, 
they are our children and they need us now more than ever.
                                 ______
                                 
    Chairwoman McCarthy. Thank you.
    Ms. Grant?

 STATEMENT OF ISIS SAPP-GRANT, DIRECTOR OF YOUTH & EMPOWERMENT 
                         MISSION, INC.

    Ms. Sapp-Grant. What can I say? He said it all. Seriously. 
This is the first time I've been speechless, and blessed. It's 
payback. Right?
    Thank you for having me here today. And I come representing 
Brooklyn, New York, but also representing the United States of 
America.
    I told a group of kids the other day on Friday in Brooklyn 
at South Shore High School that I am the American dream. When I 
looked at them at South Shore High School, I realized how many 
of us don't feel that way. They're not feeling that. They're 
not feeling as though this United States of America, this 
country represents them.
    And like you said so well, Sergio, the fact is that when 
they're grown up and when they come to this country because 
everyone comes as immigrants, there's always been gangs. Gun 
violence was borne out of this. Every immigrant group that came 
to America had their gang problems. The only way they've been 
able to solve that problem is by becoming a part of the greater 
society and by being accepted into the greater society.
    So even people who are not currently immigrants who have 
not been accepted in that greater society are still trying to 
find that culture and creating cultures of their own. So you do 
have gang members that, young African-Americans, young 
Hispanic-Americans who have been here.
    But as long as you take this power that you guys really 
have and just say, ``You know what? We're going to put it into 
law enforcement and make it a youth problem and fight against 
these youths to save our community,'' we're always going to 
have a problem. You have to include young people in the process 
because they are hurting.
    At this event I went to last week, again, the biggest 
issues for them are snitching. You know, we can't talk about 
gang violence without talking about all these other underlying 
issues. The fact is most young girls, for example, who are gang 
members, at least 75 to 80 percent of them have been sexually 
or physically abused. So how do we begin to talk about or lock 
them up for their problems when these are the issues that 
they're facing?
    You know, what keeps coming to mind that makes me so angry, 
if only we gave the type of attention and saw these young 
people in the same way and gave the type of energy that we give 
to freaking Paris Hilton, we would be in a totally different 
situation right now. This young girl and her group of people 
would do whatever they want. They still find a way to treat her 
illness. If only looked at these issues the same way we look at 
anorexia, we would be dealing with a whole different--we 
wouldn't be sitting here right now.
    You know, I was in a setting like this 5, 6 years ago and 
it was with one of your colleagues. Was it Roy Goodman, Senator 
Roy Goodman? Right? Again, very saddened at the outcome because 
the only thing the man could say to me after putting out these 
same issues was, ``Wow, you're very articulate.'' that's where 
he left it.
    Because, again, it's sad when we talk and we see the 
leadership and we have to combine the leadership and we have to 
connect with you guys to make sure these things are put in law 
and that there's money coming down to these programs as 
service. But if you see kids as violent and that's it and if 
you see them as, you know, this is the end of their rope anyway 
or you don't see them as your children, then the conversations 
stop right when the door closes and we all go home and continue 
business as usual and I'll continue to do programs around the 
city and make my programs national and do it on a smaller 
scale. But kids will continue to die because we're not all on 
the same page.
    So I have this whole speech written out but you guys could 
read it. I don't want to waste your time. But all I'm saying 
is, please, there has to be a way to make sure that programs 
that are in the community are getting some of this funding 
that's out there.
    Millions--it breaks my heart that after doing this work for 
half my life we still--money is still--I look at my husband who 
is getting tired of supporting my organization. The money that 
really needs to go into these programs are going to building 
more jails. Everything but the right thing.
    These kids are smart, they have strong hearts. They are 
resilient. But all they see are people who don't see them. The 
biggest problems are poverty and we have to deal with it by all 
means necessary. And it's young people who feel hopeless, 
powerless and invisible. Until we begin to really see these 
young people we will continue to have these problems.
    I'm the type of person who gets on the train and when I see 
things that are not right I say something. If I see kids acting 
up on the train and say, ``I know your mama didn't raise you 
that way.''
    People get upset, even if they're picking on somebody. I'm 
not going to ask everybody to do that. That's my style. But we 
have to continue to see young people not live on the street, 
carry on like crazy people and not say because they're kids. 
When we act scared they will become. They're kids. Plain and 
simple. Half the time they're looking for someone to say 
something.
    I remember the young girl I did say something to on the 
train the other day and she said, ``Nobody cares.'' she turned 
around and all the people on the train, yes. Well, why didn't 
you say something? That's what our kid are saying. ``why didn't 
you do something, why didn't you say something?''
    We have to challenge the people on the Hill to do 
something, take some of that money being spent for other 
violence and put it back into our cities where we really need 
it and to support the organizations on the ground.
    We talked about the community-based programs, support the 
community-based programs. We talk about neighborhood, support 
them. The largest organizations, I think some of them are doing 
fine jobs, but kids are getting lost in these programs. They're 
not addressing many of the very comprehensive needs that these 
young people need.
    The reality is that the young people need jobs, yes. The 
young people need to have better schooling and to be put back 
in school. Because by the time we get to them, they're not in 
school, they're truant or failing school. So a lot of our time 
goes to getting people back into school. They need therapy 
because, like I said, most of them are dealing with sexual 
abuse, physical abuse. They need therapy because most of them 
are dealing with abuse--if they're not using drugs they come 
from families that are abusing drugs.
    We all know that if you come from a family abusing drugs 
you have your own set of issues that you have to deal with.
    Some of these are that things that, as Americans, we are 
all dealing with. But other people choose to find their own way 
out, whether drug abuse or gang violence. They're all the same, 
they're all going to end in violence. So we have to address 
them in that way.
    Thank you.
    [The statement of Ms. Sapp-Grant follows:]

   Prepared Statement of Isis Sapp-Grant, LMSW, Director of Youth & 
                       Empowerment Mission, Inc.

    Good Morning Mr. Chairman and distinguished Members of the 
committee, thank you for the invitation to appear before you today.
    My name is Isis Sapp-Grant and I am the Executive Director and 
founder of the Youth Empowerment Mission Inc. an organization based in 
Bedford-Stuyvesant Brooklyn New York. YEM was founded in 1995 to meet 
the critical needs of young people affected by gangs, violence and 
delinquency. We approach this through integrated initiatives that 
engaged youth, their families, community-based organizations, schools 
law enforcement agencies and city officials. Over the years YEM has 
helped human service professionals and community members learn how to 
work more effectively with in crisis and at-risk associated with street 
gangs. YEM is dedicated to providing long term solutions that give 
young people in high risk environments real alternatives to violence 
and delinquency, while addressing the conditions that create these 
environments. We facilitate this by providing core early intervention 
programs like the Blossom Program for Girls (``Blossom''), the Be the 
Change Advocacy and Leadership Project and the Girls in Business 
program, these programs incorporate: educational support services and 
advocacy, counseling, leadership development, life skill development, 
mentoring, job readiness skills, and community involvement.
    In 2000, YEM launched the Blossom Program for Girls (``Blossom'') 
to address the needs of girl's ages 11-21 that are at high-risk or 
involved in gangs, violence or other self-destructive behaviors. In its 
five-year history, Blossom has successfully reached hundreds of girls. 
The Blossom Program currently serves over 70 pre-teen and teen girls. 
Over 90 percent of the girls we serve are African-American and 95 
percent of the girls that come to Blossom are living in poverty. 90 
percent come from single-mother led households. Blossom's core 
components prepare girls to move from crisis to competency by equipping 
them with skills and information that support their healthy 
development. Participants also gain an appreciation for the power they 
possess to advocate for changes in their lives and in their community. 
Participants are referred to the program by schools, detention centers, 
parents and other community-based organizations. In addition we offer 
workshops and other youth development services to schools and agencies.
    Our organization is community based with national influence. We 
receive calls and support communities and young people around the 
country in the effort to aid and empower youth facing severe socie-
economic difficulties, academic challenges and engagement with the 
juvenile justice system.
    I am here this morning because the crisis facing our youth produces 
long term damage our communities socially, economically and morally. To 
many of our youth are joining gangs and in the process losing their 
lives to violence, losing their freedom to jails and losing their 
future to bad choices. Our youth can be saved The same energy and 
commitment that they give to their peers in the gangs can with the 
right strategies be refocused on changing their own lives and their 
communities for the better.
    I have worked with gang involved and delinquent youth for nearly 
two decades. I have seen success in young people who were referred to 
me because they were designated ``delinquent'' or ``beyond help'' and I 
have witnessed these same youth change their lives for the better when 
given access to needed resources, skills and opportunities for 
empowerment . This is our work.
    I have a vested interest in the success of these young people , I 
live in Bedford Stuyvesant with many of the youth I work with but more 
important I use to be one of them and sadly the factors governing the 
growth of gangs has not changed;
    Powerlessness, hopelessness, and feeling invisible are at the 
underlying feelings of most gang members. Cyclical family poverty, poor 
education, lack of resources, are at the root of the problem.
    In the late 1990s many of the youth involved in gangs were from 
families and communities devastated by crack and HIV/AIDS. Many are 
young people who were raised by teen mothers or grandparents. I grew up 
a generation before them in the 1980's my neighborhood was ravaged by 
crack cocaine and the AIDS epidemic. There were no role models. The 
only people who weren't living in poverty were drug dealers and the 
gangsters who we respected out of fear. That was my world. So, as a 15 
year old entering high school, the way I saw it, I had one choice--``Am 
I going to be the predator or the prey?''
    I didn't set out to join, let alone start one of the most fearsome 
girl gangs in the city. At first we didn't call ourselves a gang. But 
our hopelessness and our need to survive the violence both on the 
streets and at home became the foundation of our bond. We protected 
each other and became the family that most of us didn't have. People 
knew that if you messed with us, we would fight back. And that's how it 
started. How does it happen? What happens to young boys and girls to 
make them think it's okay to knock someone out or rob them? There are a 
number of things but it starts out with kids in poverty feeling 
invisible. Kids like my friend Lisa who was born in jail and shuttled 
between an abusive home and foster care. If you messed with Lisa, she 
would hurt you without blinking. Her thought process was very simple: 
``I've been hurt. I won't get hurt anymore. I'll get you first.'' ) 
When you feel this vulnerable you become the most dangerous person in 
the world.
    Some kids do it for protection Like Nelsa, whose parents were 
heroin addicts. She took care of her siblings from the time she was 13 
by working as a stripper on her lunch break during school. And the gang 
protected her. We kept Nelsa safe so she could do what she had to do to 
take care of her little brothers and sisters.
    In Bed Stuy, where our program is located crime has increased by as 
much as 28 percent at a time when crime rates dropped in other parts of 
the city. And a rising number of these crimes are committed by young 
women who now make up 30 percent of youth gang members in New York. In 
most cases, these young women are perpetuating a cycle of violence that 
started with their own abuse--an appalling 85% of the girls who enter 
the prison system have been sexually or physically abused. Once 
entrenched in a gang, these young women have little hope for a future. 
Of those that survive, over 75 percent will become pregnant or drop out 
of school before they're 18.
    Today, All Youth are at-risk for gangs and violence, because the 
threat of violence is so wide spread. Those who attend school or live 
in a neighborhood with gangs are forced to choose membership. It is a 
with us or against us mentality.
    The situation for girls involved in gangs and delinquency is 
different now. Not only have girls become more violent, they have also 
become more victimized. They have accepted rape as a way of showing 
loyalty to the gang. One girl I recently met shared her experience of 
being ``blessed''. She told me that she wasn't in the gang, only a gang 
affiliate. But she was protected because she had been forced to have 
sex with all the gang members. And that's what it means to be blessed.
    Right now, there are girls out there, just like I was, who are 
counting on someone to see past the bravado. Girls who are looking for 
someone to listen, girls who don't know there is an alternative to 
pimping their bodies, who have no role models--who feel invisible. And 
that's where YEM comes in. We work with the young people, most of who 
are in crisis when they reach our doors. If you came to Blossom you 
would see girls in a small groups being tutored in math, a group of six 
girls in a sexual abuse survivors group, you would hear Jessica 
boasting about working at her mentors consulting firm on the weekends, 
you would see Girlz in Business participants creating designer pillows 
under their Cozy Comforts pillow business, you would see a group of ten 
parents in a parent support group , you will find a girl in crisis 
crying but coming to one of our counselors for assistance, you will 
hear African drums beating as 75 young women dance across the floor. 
You will see girls writing and performing their poetry at our Poetry 
cafe and if you came today you would see girls organizing for their 
march and speaking out against the negative impact of the media on 
girls and young women of color. You will see first hand what happens 
when we invest in our young people. YEM is genuine community 
empowerment.
    YEM is youth empowerment. We have to stop talking about gangs it 
only gives it power, instead we have to address all of the bigger 
issues that gang involvement covers; Poverty, poor education, racism, 
classism, and violence. As we point the judging finger at youth we also 
need to look in the mirror and at our leadership for the glorified 
violence that our children are exposed to on the street, on television 
and on the radio. We live in a very violent society that forces youth 
to become desensitized and hardened. We send mixed messages to our 
children and are shocked when they express their pain and confusion by 
engaging in violence, promiscuity and drug abuse.
    Our young people are smart and resilient if given the right 
academic and moral nourishment and support they need, they will succeed 
but if we continue to attack symptoms rather than the historical 
diseases of poverty, prejudice, sexism, and classism and look at the 
surface issue of ``gangs'' as the enemy as opposed to the real 
underlying factors that almost force young people to run toward gang 
involvement, our young people will continue to become statistics, 
inmates, teen parents, victims and perpetrators of violence.
                                 ______
                                 
    Chairwoman McCarthy. Thank you. Chris.

 STATEMENT OF CHRIS MADDOX, ASSISTANT OUTREACH WORKER, H.E.V.N

    Mr. Maddox. Good morning. Thanks for having me.
    I, too, at the age of 15 joined a gang and I had an 
attitude like nobody ever really cared whether or not I went to 
prison or whether or not I succeeded in life. And when I look 
back at that lifestyle, now I think a lot of things like 
criminal activities out of misdirected anger. I didn't know how 
to handle the things that I was going through.
    So at the age of 17, November 30, 2000, I went to prison. I 
did five years in prison. Then all throughout my years that I 
did in prison, I don't think I learned anything. I was able to 
read, able to sit down and get in touch with myself. But I was 
still bullied without substance.
    I knew I wanted to be a success in life. I knew that I 
wanted to be, like, known by government officials. I knew I 
wanted to be successful. But I didn't know how to do it. I 
didn't know what actions to take. I was scared to sit in front 
of people with suits on and I was intimidated by the world.
    I was intimidated and I surrounded myself around people 
that were just like me, that accepted poverty and we just 
didn't respect law enforcement. We didn't have any respect for 
no one other than ourselves or people that was like us.
    It wasn't until 2005, March 7, 2005, that's when I came 
home from prison and I was talking to a friend. And I told 
him--and I was able to really express myself to him and tell 
him, like, I don't want this lifestyle no more, man. I need to 
get a job.
    But in my heart, I knew if I got a job that that's all it 
was going to be, was a job. I needed somebody to help me 
redirect my thoughts, change my pattern, my way of thinking. 
And he took me to the Bishop J. Raymond Mackey and upon talking 
to the Bishop, he sat down and he asked me, ``Son, what do you 
really want to do with your life? You said you want a job. I 
can get you a job but you have to change the way you think in 
order to keep that job.''
    And from that point I looked at him and I knew, I saw the 
sincerity that was in his heart and he let me realize that--he 
let me see that it was unconditional love out there other than 
my family. And it was a process. It was a long process that we 
had to go through. And I was still out there doing the things 
that wasn't morally--wasn't the way I was brought up.
    But through consistency and through him being consistent in 
my life and constantly standing over me like a father--like my 
second father, because I did have my father, but like a second 
father--taught me, helped me realize that it's people out there 
that love you.
    And this organization H.E.V.N. taught me how to be an 
example to others. It taught me hurt people, hurt people and 
heal people, heal people. I was hurt all those years. So that's 
all I knew, taking my anger out on others, hurting people, that 
I didn't have no other way to do it.
    So with the Bishop, he taught me how to be a man of 
integrity, how to be a man of your word and how to be an asset 
to others and now that we have a close relationship, close bond 
like he's my father, I feel like I can be an asset to others.
    Now, H.E.V.N., we got this program that we adopted 100 
families and I have this young boy that's 13 years old and he 
was having a lot of problems in school. And I felt his pain. I 
know he was reacting because he didn't know no other way to 
control his anger. And he was adopted, he had a lot of issues 
in his life, with his mother. And I felt his pain and I'm able 
to be an access to his life and he's able to change his life 
around because somebody outside of his family showed him that 
they cared for him.
    So we could sit here behind this desk and talk and do all 
these things. But the real problem is out there on the street 
corners. All we're seeing is consequences. Now, if we show we 
could go out there and reach out to somebody and adopt a 
family, adopt a person and let them know that you are there for 
them no matter what, through the good, bad and ugly, that's a 
major, major piece in our community.
    And through the Bishop we go out there on the streets and 
we're involved in these gang activities. We're out there 
reaching out to them personally.
    We can't sit back as a community and talk about it. We have 
to come together as components in our community and go back 
there and check out our streets.
    So I want to end with hurt people, hurt people and heal 
people, heal people.
    Thank you.
    [The statement of Mr. Maddox follows:]

Prepared Statement of Chris Maddox, Assistant Outreach Worker, H.E.V.N.

    Unlike most children in my community, I grew up with both parents 
in my life. My mom and dad divorced when I was about eight years old. 
It seemed as though it did not have an affect on me, but it did. I 
continued, however, to be an honor student for the next two years.
    When I used to walk to school, I would go pass this block where 
there always seemed to be excitement. I was curious about what used to 
go on there. One day on my way home from school, my friends and I 
decided to walk down that block. While walking through, we saw people 
standing on corner, talking loud, rolling dice, selling drugs, talking 
to women, drinking alcohol, and countless other things. This lifestyle 
seemed exciting to us. We wanted to be just like them.
    I held my first gun when I was in the sixth grade. I smoked my 
first blunt of marijuana around the same age. Slowly I was inheriting 
this street lifestyle that I thought was so fun. On Friday nights a 
group of us used to go to the train station to look for Latino men to 
jump and rob them. We used to steal bikes and started getting deeper 
and deeper into the lifestyle. But after a while, we were no longer 
satisfied with riding stolen bikes * * * now we were driving stolen 
cars.
    At this point I was knee-deep in the street lifestyle. I was 
hanging out late nights drinking and smoking. I was basically void and 
without substance. I would fight in school on a daily basis, cutting 
classes, and leaving school when I wanted. Then in 1998, my lifestyle 
went to a whole different level. I was initiated as an Outlaw and went 
from doing petty crimes to gang banging.
    There were 53 Outlaws in Hempstead. We had dreams of taking over 
the neighborhood. By 1999 we were recognized by all street gangs, 
police, and government officials. On Friday nights we use to have 
meetings at a local park to initiate new members and discuss things we 
thought need improvement within our set. We were organized criminals.
    On Nov. 30, 2000 my life took another major turn. I got arrested 
for an armed robbery and sentenced to 5 years. This was my first time 
ever going to prison. There I met up with my Outlaw brothers. It seemed 
almost like a disease that we all were catching and it opened my eyes. 
It let me see who my true friends were.
    I was not really upset that I was in prison because I knew what I 
did was wrong. I had to handle my time. But I still was angry because 
the people who I thought were my friends didn't come through like I 
felt they should've. So I spent my whole time in prison reading and 
working out. I prayed at night here and there. Then when it was time 
for me to come home, I thought I had all the answers. I thought I knew 
what I wanted out of life, but something about me was still empty.
    When I came home spoke to a friend and I told him that I needed a 
job. He took me to meet Bishop J. Raymond Mackey. From the start I saw 
his love and passion for saving lives. I knew it wasn't just another 
job for him. While talking to the Bishop, he challenged my thought 
process. When I strayed away, he consistently called me and did 
whatever it took to get me back on track. His vision for H.E.V.N. 
became my vision. I wanted to help save people and be a mentor to 
others as well. I no longer wanted to be recognized by gang bangers and 
street hustlers. I wanted people to see the good work I was doing in 
the community. Today, I sit before all as a Program Assistant Outreach 
Worker for H.E.V.N.
    Lord Knows!
                                 ______
                                 
    [Additional materials submitted by Mr. Maddox follow:]

                           H.E.V.N. COALITION

                        Helping End Violence Now

               ``Our Youth Are Our Most Valued Resource''

    Mission Statement: H.E.V.N. is a coalition of Faith Based 
Organizations/Agencies, Individuals and families.

    Our goal is to preserve the quality of life for all by preventing 
the growth and reversing the negative influence of gang and youth 
violence upon communities.

    What are gangs?: ``An ongoing organization, association, or group 
of three or more persons that have a common interest and/or activity 
characterized by the commission of or involvement in a pattern of 
criminal or delinquent conduct.''
         h.e.v.n. coalition & council for unity partnership and
        h.e.v.n. hempstead community cluster--a call for peace!
        Requesting All Of Hempstead CORE Gangs Members To Attend

                        ``PROJECT PEACE TREATY''

               (LET'S WORK TOGETHER TO STOP THE VIOLENCE)
               Friday, December 8, 2006 10:00 AM--1:00 PM

                                held at

               All Saints Temple Church Of God In Christ
                102 Laurel Avenue * Hempstead, New York

           Resources will be available to address all needs!

Rev. Eliezer Reyes, H.E.V.N. Executive Board President
Bishop J. Raymond Mackey I, H.E.V.N. Executive Director
Rev. Lynnwood Deans, Director H.E.V.N. Hempstead Community Cluster
Mr. Robert Desona, President/Founder Council For Unity
                                 ______
                                 

                           H.E.V.N. COALITION

                        Helping End Violence Now

               ``Our Youth Are Our Most Valued Resource''

    Mission Statement: H.E.V.N. is a coalition of Faith Based 
Organizations/Agencies, Individuals and families.

    Our goal is to preserve the quality of life for all by preventing 
the growth and reversing the negative influence of gang and youth 
violence upon communities.

    What are gangs?: ``An ongoing organization, association, or group 
of three or more persons that have a common interest and/or activity 
characterized by the commission of or involvement in a pattern of 
criminal or delinquent conduct.''

                                           Tuesday, August 8, 2006.
Mr. George M. Sandas Office: 516-478-6247 Fax: 516-489-3015,
Superintendent of Parks & Recreation, Inc. Village of Hempstead, 
        Kennedy Memorial Park, 335 Greenwich Street, Hempstead, NY 
        11550.
    Dear Mr. Sandas: Greetings! I appreciate your assistance in regards 
to 3rd Annual HEVN Hempstead Community Cluster Community Awareness Get 
Help Now Day.

    We would like to have this event on Saturday, October 6, 2007 at 
Mirchelle Park from 10:00 AM--4:00 PM. We are requesting the use of the 
village's show mobile without a fee if possible. HEVN has limited 
resources for this event. Last year over 250 Hempstead residents 
attended. They received information from our resource tables and were 
given free food. It was a great success!

    Looking forward to hearing from you as soon as possible. You may 
reach me at 516-644-7801. Your continued support is greatly 
appreciated. Have a blessed and Wonder-FILL Day!
            Yours truly,
                              Bishop J. Raymond Mackey Sr.,
                                                Executive Director.
                                 ______
                                 

                           H.E.V.N. COALITION

                        Helping End Violence Now

               ``Our Youth Are Our Most Valued Resource''

    Mission Statement: H.E.V.N. is a coalition of Faith Based 
Organizations/Agencies, Individuals and families.

    Our goal is to preserve the quality of life for all by preventing 
the growth and reversing the negative influence of gang and youth 
violence upon communities.

 HEVN COALTION & COUNCIL FOR UNITY PARTNERS & HEVN HEMPSTEAD COMMUNITY 
 CLUSTER PROJECT PEACE TREATY PEACE AGREEMENT FOR THE YOUTH OF HEMSTEAD

    This agreement has been drawn by the Council Of Unity and HE.V.N., 
with the hope that a cycle of conflict will be replaced by a climate of 
peace and possibility for the youth of Hempstead, H.E.V.N. and Council 
for Unity will commit their resources and assets to support this 
initiative.
    The Parties who sign this peace treaty agree to the following:
    1. All acts of violence by opposing gangs must stop immediately.
    2. Leaders from opposing gangs agree to form a H.E.V.N./Council for 
Unity governing body to arbitrate all disputes and settle all beefs in 
a fair, just and non-violent manner.
    3. All individuals who appear before this group will abide by its 
decisions. In cases where an agreement cannot be reached, all parties 
can appeal to the adult H.E.V.N. and Council for Unity, Inc. for 
arbitration.
    4. The newly formed H.E.VN./Council for Unity, governing body will 
plan, cultural and recreational projects for the purpose of uniting all 
elements of community into constructive on going relationships where a 
culture of conflict will be replaced by a culture of cooperation and 
hope.
    5. The newly formed H.E.V.N./Council for Unity governing body 
agrees to work closely with community groups/resources and associations 
to further the educational career possibilities of the youth of 
Hempstead.
    By signing this agreement, I agree to accept the conditions set 
forth in this document and to take advantage of the second chance this 
arrangement provides:

                             (please print)

Name: ____________ Date or Year Of Birth ____________

Address: ______________________________

                               (optional)

 ______________________________________

signature                          contact phone number                 
                                      date

                                 ______
                                 

                           H.E.V.N. COALITION

                        Helping End Violence Now

               ``Our Youth Are Our Most Valued Resource''

    Mission Statement: H.E.V.N. is a coalition of Faith Based 
Ministries, Law Enforcement Agencies, School Districts/Educational 
Institutions, Government Officials, Community Organizations/Agencies, 
Individuals and families.

                       H.EV.N. COALITION PARTNERS
                  H.E.V.N. Hempstead Community Cluster

Rev. Lynnwood Deans, Hempstead Cluster Director, Saturday, October 14, 
                        2006 * 11:00 AM--4:00 PM
         Place: Mirchell Park * 90 Atlantic Ave * Hempstead, NY

    Official Program 11:00 AM-12:15 PM
    Opening Prayer
    Greetings Rev. Lynnwood Deans
    Welcome
    Introductions
    Solo
    Statement Of Purpose/H.E.V.N. VISION, Bishop J. Raymond Mackey I
    Testimony/Hykiem Coney, Former Gang Leader/Member
    Greetings Government Officials
    Closing Prayer
    Entertainment 12:30 PM--3:30 PM
    The Psalms Gospel Arts Center Inc. Elder Kevin McKoy, Founder & CEO 
/ Tabernacle Of Joy Music Ministry
    Basketball Contest 12:30 PM--3:30 PM
                                 ______
                                 

                           H.E.V.N. COALITION

                        Helping End Violence Now

               ``Our Youth Are Our Most Valued Resource''

                  HEVN COALITION STATEMENT OF PURPOSE

    <bullet> Mission Statement--HEVN is a coalition of Faith Based 
Ministries, Law Enforcement Agencies, School Districts / Educational 
Institutions, Government Officials, Businesses, Community Organizations 
/ Agencies, Individuals and Families.

    Our goal is to preserve the quality of life for all by preventing 
the growth and reversing the negative influence of gang and youth 
violence upon communities.

    <bullet> Plan Of Action--``A House Divided Against Itself Cannot 
Stand'' -- ``A City Divided Against Itself Is Brought To Desolation''

    In order to effectively address the issue of gang/youth violence 
there must be collaboration among the entire component of the 
community. Addressing not only the gang/youth violence but holistically 
addressing the family / community problems that are present in our 
communities. The gang/youth violence are the symptoms while the core of 
this issue traces to the problems / needs of the families of our 
communities which affect the community as a whole. HEVN seeks to 
address the social and economic issues affecting the families in order 
to reverse the negative influences within the community.
    In order to accomplish this, HEVN is developing community clusters 
with a Board Of Directors and Community Cluster Partners, representing 
the components of the community listed above. The Board Members will be 
persons from the community of the cluster and as well as the partners. 
To identify the problems, needs, and present resources available to 
address the problems and network in solving them by meeting the total 
needs of the community. HEVN COALITION will assist in establishing the 
necessary assistance in addressing areas of missing gaps and links in 
the community in areas where services are not available. Without 
effective uniting, collaboration, and networking to address the 
concerns of the community, the greater success will not be realized.
    HEVN's Coalition Partners are national, state, local, faith-
alliances, government officials, law enforcement agencies, school 
districts, education departments, corporations / businesses, community-
based organizations / agencies and personalities who will provide 
services in assisting HEVN's mission, vision / plan of action. The 
Coalition Partners will work directly with HEVN's Executive Board, 
Executive Director and staff. Each partner will provide HEVN a 
statement of services / resources they are committed to render to the 
Coalition.
    The components of the Community Clusters and Coalition Partners 
will not lose their own identity, nor their present resources and or 
funding. HEVN is a mutual vehicle designed to organize the strongest 
collaboration, and networking that can exist within a community. Only 
together, united can we make the difference for the good of our 
communities.

   ``For United We Stand And Divided We Will Fall'' * ``Let's UNITE!"

                                 ______
                                 

                           H.E.V.N. COALITION

                        Helping End Violence Now

               ``Our Youth Are Our Most Valued Resource''

    Mission Statement: H.E.V.N. is a coalition of Faith Based 
Organizations/Agencies, Individuals and families.

    Our goal is to preserve the quality of life for all by preventing 
the growth and reversing the negative influence of gang and youth 
violence upon communities.

    What are gangs?: ``An ongoing organization, association, or group 
of three or more persons that have a common interest and/or activity 
characterized by the commission of or involvement in a pattern of 
criminal or delinquent conduct.''

                 H.E.V.N. ACCOMPLISHMENTS/Major Events

                    * This is not a complete list *

    1. June 1999 meeting with Nassau County Detective Corey Alleyne and 
Wilson Marrero and Bishop J. Raymond Mackey Sr. concerning the issues 
of gang/youth violence and the need for Community Awareness 
presentations in our local Church. June 1999-September 1999 local 
churches were scheduled for presentations following morning service.
    2. October 1999 1st Community Leaders/Organization meeting held at 
Tabernacle Of Joy Church, Uniondale, NY. Gang Awareness and Planning 
Session to Host 1st Community Gang Awareness Workshop, over 70 persons 
present representing, Faith Based Ministries, Law Enforcement Agencies, 
School Districts, Government Officials, Community Organizations/
Agencies and families.
    3. December 4, 1999 1st Community Gang/Youth Violence Awareness 
Meeting held at Fountain Of Life Church, Uniondale, NY
    4. July 1999 Hosted Boston Ten Point Executive Director, Reba 
Danostrog, Gang Awareness Workshop
    5. January 2000 Pastors/Clergy Community Gang Awareness Breakfast 
held at Fountain Of Life Church, Uniondale, NY. Over 70 clergy persons 
in attendance.
    6. March 2000 2nd Community Gang Awareness Meeting held at Grace 
Cathedral Uniondale, New York
    7. April 2000 12 persons visited Boston Ten Point Coalition to hear 
their story and adopt their program as model to be brought back to Long 
Island and tailored to fit Long Island. A day and a half was spent in 
Boston as we listened and learned from each component of the Ten Point 
Coalition. We were told that at one time Boston Ten Point Coalition 
reduced their criminal gang activities from eighty six percent down to 
two percent. We felt that this was the model for us.
    8. April 2000-August 2001 Foundational Work to Officially Establish 
and Incorporate H.E.V.N. Coalition
    9. August 2001 H.E.V.N. Coalition Inc.
    10. November 2001 501C3 status received.
    11. April 2000-November 2002 Continued to host monthly Community 
Gang Awareness Presentations.
    12. May 2000 Held anti-gang rally/march in Uniondale, NY
    13. June 2000 Held a prayer vigil for Eric Rivera (who was killed 
by gang members coming home from Puerto Rican Parade.
    14. December 2, 2000 1st Nassau/Suffolk Counties Community Gang 
Awareness Meeting held at Amityville Full Gospel Church, Amityville .NY
    15. November 2002 Enter into a partnership with Nassau County 
Executive Tom Suozzi and Nassau County Task Force Against Gangs
    16. October 31, 2003 Ribbon cutting ceremony of the grand opening 
of H.E.V.N. Executive Office 40 Main Street Lower Level, Hempstead, NY. 
This was a result of our partnership with Nassau County. Funding was 
provided for the Administrative Office. Rev. William Watson became 
President of Executive Board, Bishop J. Raymond Mackey Sr., Executive 
Director, and Elder Kevin McKoy, Program Coordinator.
    17. November 2003 H.E.V.N. Hempstead Community Cluster Board of 
Directors was formed, with the assistance of Mayor James Gardner.
    18. October 2003 H.E.VN. Roosevelt Community Cluster Board of 
Directors was formed.
    19. January 2004 H.E.V.N. Hempstead Community Cluster held its 1st 
Community Partners Meeting
    20. August 2004 Conducted the Funeral Service of Teddy Rainford, 
ninety persons attending the service came forth to give their lives to 
Christ and want to redirect their lives, they became clients of 
H.E.V.N.
    21. September 2004 H.E.V.N. Hempstead Community Cluster 1st Back To 
School Rally,400 Back-Packs with school supplies were given out to 
Hempstead School District
    22. September 2005 H.E.V.N. Hempstead Community Cluster 2nd Back To 
School Rally, 395 Back-Packs with school supplies
    23. November 2004 Hykiem Coney former gang leader of Hempstead Out-
Laws became H.E.V.N's Program Assistant Out Reach Worker.
    24. June 2005 H.E.V.N. Westbury/New Cassel Community Cluster Board 
of Directors was formed with the assistance of Mayor Ernest Strada, 
Village Of Westbury
    25. December 2005 H.E.V.N. Roosevelt Community Cluster gave one 
hundred and thirty eight books as Christmas gifts the Roosevelt 
District Pre-K School Students.
    26. H.E.V.N. Community Cluster since January 2004 has been hosting 
Community Awareness Get Help Now Meetings. At these meetings H.E.V.N. 
Plan Of Action and Mission is explained, the work of the community 
clusters, and coalition/community partners resource tables are set up 
for families in need. These meetings have been held in community 
centers, churches, Roosevelt Centennial Park, Hempstead Mirshel Park, 
(at the park free food was given out cook on the grill), 100 Terance 
Avenue, Hempstead, NY. Mr. Hykiem Coney and other former gang members 
have shared their personal testimonies at these meetings.
    27. March 2006: New additional coalition partners Nassau Council Of 
Chambers Of Commerce, Nassau County CSEA Nassau Local 830, Council For 
Unity Inc.
    H.E.V.N. has held several presentations concerning its vision, plan 
of action, and reaching youth through preventative and re-direction of 
the gang life style. Mr. Hykiem Coney has been a main speaking at these 
events. We have held these presentations at Roosevelt, Hempstead, 
Freeport, Far-Rockaway, Brooklyn Schools, Molly College, Rockville 
Centre, NY, The Holocaust Memorial and Educational Center of Nassau 
County, Glen Cove, NY
    H.EV.N. as of April 4, 2006 has 227 clients representing 227 
families. Clients needs and family need have been addressed. Housing, 
Clothing, Counseling, Drug and Alcohol programs, Social Service 
Assistance, Job Readiness programs, GED programs, assistance in 
enrollment in Nassau Community College, Hempstead Franklin Career 
Institute, Garden City Career Institute Of Health and Technology, and 
other areas has been addressed.
    H.E.V.N. presently has two Basketball Teams ages 11-12 and 13-16. 
Both teams are Hempstead Cluster Teams. The age 11-12 team February 
2006 came in second place in the Hempstead P.A.L. league. It is 
H.E.V.N. goal to establish a Basketball League and Step Teams 
representing teams from each Community Cluster.
    H.E.V.N. Established Project Restoration 100 Terrace Ave, Hempstead 
NY June 2006 Goal is to bring support and restoration to the 417 family 
units addressing there needs.
    H.E.V.N. Roosevelt Cluster July 8, 2006 2nd Annual Community 
Awareness Get Help Now Day Held at Roosevelt Centennial Park. Over 200 
persons were in attendance. Resources tables were set up to assist 
families, basketball torment for youth, barbecue cook out, free food.
    H.E.V.N. Hempstead Cluster September 9, 2006 ``Festival Day'' Held 
at Judea United Baptist Church 83 Greenwick St Hempstead NY. Live 
Entertainment, Free Clothing and Food. Several hundreds attended.
    Last Radio Broadcast Of Hykiem Coney with Radio Station in Chapel 
Hill, NC
    H.E.V.N. Hempstead Cluster October 14, 2006 2nd Annual Community 
Awareness Get Help Now Day. Held at Hempstead Mirshell Park (Atlantic/
Terrace Avenues) Over 300 persons attend, Live Entertainment, 
Basketball torment, Free Food given out, Resource tables to assist 
families in need.
    H.E.V.N. Increase The Peace Rally at Hempstead School Wednesday, 
October 18, & Thursday, October 19, 2006
    Two days presentation at Hempstead High. Last Presentation that 
Hykiem Coney was a part of.
    Wednesday, October 25 2006, Minister In Training, Hykiem Coney , 
H.E.V.N. Program Assistant Out Reach Worker passed.
    Thursday, November 2, 2006 Funeral Service held for Hykiem Coney, 
Union Baptist Church, Hempstead, NY Over 3000 persons attended. 
Federal, State, Local Governmental Officials were present. This was the 
largest Funeral Service held in the Village Of Hempstead.
    Monday, November 27, 2006 H.E.V.N. School Assembly Presentation PS 
183 School, Far-Rockaway, NY 5th-8th Graders.
                                 ______
                                 
    Chairwoman McCarthy. Thank you all for your testimony.
    You know, I have a set of the testimony that we've read, 
and we set questions up. But after listening to all of you, I 
guess the questions that I have is now I am legislator. I am 
the one that has to back up Washington with my colleagues, with 
the committee and come up with how do we best help all of you 
to help those that we're trying to reach.
    You know, we're going to have limited resources. That's 
always the problem. Always limited resources.
    You talked about intervention and prevention, which I 
believe that intervention comes with the police, the Attorney 
General, because that means something has already gone wrong. 
Prevention means how are we going to reach out to our young 
people that we already see at risk?
    You talked about groups out there to get the money. That's 
what I always see as the problem. You give the money to the 
state and then it's up to the state to decide where does the 
money go.
    Obviously, you know, sometimes that money goes to those who 
have better connections than those through the programs that 
are actually working on the streets. And that's a shame. But I 
guess the question to all of you is if I take a small amount of 
time to answer that, how do we really resource it to make sure 
it gets to the groups that need it the most to reach the 
children? At what age? I've always said high school is too 
late.
    Why aren't we looking at a program grade school through 
junior high through high school for those children at risk? For 
11 years in Congress, the gang problem has gotten worse instead 
of better, in my opinion. You're seeing more violence on the 
streets than ever before, in my opinion. And we need to have a 
solution. We're not going to have all the winners. We're not.
    But again, we have to start somewhere to show these kids 
they are kids, that people do care about them even if we don't 
know them. We want to see each and every one of our children 
succeed.
    So, Chief, if you could start off?
    Chief Woodward. Thank you.
    First and foremost, I think we have to take control. I 
think for too long we've tried to be all things to all people. 
In doing that, I think what we've done is spread ourselves too 
thin. Instead of concentrating on what works--and really, 
that's questionable itself--I agree with you, a preschool 
program I think should be our main focus.
    I think that every child should have the same level to 
start at. I believe that these preschool programs in some cases 
you have parents who have a tremendous amount of money. We have 
to put their kids in programs where they get the foundation you 
need to grow. Other children, because of economic disparity, 
fail to have that.
    As you said, Congresswoman McCarthy, the initial step is 
preschool. It is really revitalizing the family, give the 
family strong foundations and strong roots in support of the 
government. There are so many ways to do this.
    Obviously, economical is always first and foremost and it 
helps. But there are other ways. Faith-based organizations. 
These are important.
    One of the things I have mentioned is communications. We 
have gangs from all walks of life. We have Asian gangs, Russian 
gangs, so many different gangs. We have to go back to our 
foundation that we could work with each other and understand 
each other.
    I'll tell you, just dealing with everything in English, 
which is our main language, putting this report together--and 
obviously there's rewrites, there's grammatical errors--putting 
this in different languages, how to make sure we're clear, all 
of these things become an integral part of any successful 
program.
    But I agree, child development first and foremost.
    Chairwoman McCarthy. Mr. Hayes?
    Mr. Hayes. I think we need to fund programs that work and 
stop funding programs that don't work. I think resources are 
taken up when we continue to put money in programs that don't 
work. A great example for a program that's gotten all the 
support but has a track record is D.A.R.E., yet D.A.R.E. 
Continues to be popular.
    Chairwoman McCarthy. How do we weed that out? I know what 
you're saying and I agree with you, a lot of times I think 
that's one of the reasons we have the hearings because we have 
to recommend to the full committee what's working, what's not 
working.
    Mr. Hayes. I think one of the ways you weed it out is by 
putting in strings that programs that are funded have to report 
outcomes. Programs that are funded have to have research 
connected with them to show results. Some of it--and as I was 
preparing for testimony someone was saying that's ways and 
means and that's this committee--the problem is we've chopped 
everything up so much.
    I'm asking the committee to take a wide look at things. But 
let's influence research. There is a lot of federal dollars 
that go into research. How many federal dollars are going to 
researching gangs? Let's redirect things to needs, determine 
what works and put penalties where states pay back money if 
they're funding programs that don't work.
    Change IV-E. So much of that is geared towards out-of-home 
placement. It's geared to help the child stay in the home, stay 
in the community. If a child is involved in a gang and gets 
moved to a facility, first of all, they're going to be with a 
lot of other gang members in the facility and then the facility 
is not going to change the way they're going and then they're 
going to go and come back.
    Help them work through the issues while staying in the 
community. If you take them out of the community, use proven 
programs which is a non-affiliation program which is going to 
go and separate them and establish more positive influences on 
their lives.
    And with agencies like Office of Juvenile Justice and 
Delinquency Prevention, they do a lot of work on the national 
level. I've probably started more programs than any other 
entity in the country and we're a small provider. Every time I 
call OJJPD they say, ``It's wonderful what you're doing. But we 
only help on the national level.''
    Change dollars so that you help people in the trenches 
doing the work.
    Chairwoman McCarthy. Thank you.
    Mr. Argueta. One of the ways you can give assistance to us 
is sort of balancing that funding formula. You know, not that 
we're sort of at different views with law enforcement. But when 
we're providing billions of dollars to law enforcement and 
peanuts to those working in prevention and intervention, it 
makes it difficult to do the work that really needs to be done.
    You know, I don't understand how we can invest over $60,000 
a year to a correctional institution and up to a $120,000 a 
year for juvenile detention center and as soon as they get 
released they're going back to those broken neighborhoods and 
dilapidated communities to deal with those same exact issues.
    We need to look at those national programs that are 
actually working. We don't need to reinvent the wheel. Theres 
what's called Homeboy Industries and what they've done is it 
started by Father Greg Boyle, Jesuit priest, and his whole 
motto is nothing stops a bullet like a job. It actually helps 
get kids the employability skills needed and provides for a 
nonprofit sector.
    So we're in the process of trying to start a screen 
printing T-shirt business where we could actually hire our own 
youth with artistic talents to put that creativity into a 
positive and at the same time fulfill a funding. That's 
something we need to start looking at.
    Again, it needs to be a local effort. We're not looking to 
take on the issue nationally. Because guess what? It's 
impossible to do so. The issues that we have here in this part 
of the region are not going to be identical to those being 
faced by others in the state.
    So we need to really make this a localized issue and start 
working effectively with the collaborations. There has to be 
more collaboration between the organizations and it's more than 
just, you know, saying we're going to work together and share 
information. It's actually doing the work.
    You know, I focus on one thing, Freeport does something 
else, Uniondale community counsel focuses on something else. 
Let's share those resources and work together. That's what 
we're doing. But those are a couple of things where you could 
be of assistance to us.
    I need not tell you, but one is we have a problem to the 
accessibility of guns in our community. There's a problem where 
Nassau County and Suffolk County, our local county legislators 
have said we're not going to allow you to buy cigarettes until 
you're 19 years of age but any 18-year-old could walk into a 
sporting goods store and buy a gun. That is a serious issue and 
we need assistance.
    Those are just a couple of ways.
    Chairwoman McCarthy. Okay. Ms. Grant?
    Ms. Sapp-Grant. You know, we've had a lot of issues with 
getting support and I think, again, it really is about 
organizations that have been around forever who have--basically 
it's been monopolized by them. And I've had the experience of 
having, you know, people from our agencies, our city and 
government agencies say, ``You know what? That was the best 
proposal I ever read. But, you know, my hands are tied.'' heart 
sank.
    It doesn't help the kids. But at least they're truthful and 
this is many years in the working. You know, when I see Ms. 
Clarke up there, I think about, you know, a phone call that we 
had some time back where she reached out and said, ``How could 
I help you?'' you don't hear that very often. You know, it was 
the first time--it gave me like a light at the end of the 
tunnel.
    You don't have to give me a lot of money. But I am saying 
recognize. The same vision or the same way young people are 
looking at society or government and saying you know what we're 
here or we're trying to find a way to be. Organization is 
saying the same thing. So if we can't get the support, then 
really, young people, like, well, if you can't help us then 
really who will? You know, so it's really about just partner.
    One of the greatest conversations I had was sitting with 
this woman and looking at the schools and how gang violence is 
affecting the schools in New York City and the fact that the 
biggest issue for us is the fact that nobody wants to say 
anything. It is the biggest secret. And going to schools around 
regions in the Bronx, for example, and hearing the leadership 
say, ``You know what? We have a big problem.'' because it's not 
just about the gang violence in that sort of violent way. It's 
about girls being raped in bathrooms in schools and we will 
never hear that public schools are letting this happen because 
everything is hush-hush and it's happening more and more.
    Chairwoman McCarthy. I'm working on that, by the way. 
That's going to be in the No Child Left Behind.
    Ms. Sapp-Grant. Again, no snitching. This is not new. 
Again, I'm a 1980's kid in public school from the '80s and I 
sat and spoke from school to school to school, from leadership 
to police officers to anybody who would hear me, saying this is 
a problem now. I'm telling you what my experience is and I'm 
telling you who is coming from California right now and who is 
in the jails and it was, like, ``Shh.'' seriously. To young 
people.
    It's frightening. But what you can do is make it a shame to 
ignore it. You know, bring it up and talk about it. I think the 
best thing, most empowering thing for people in leadership is 
to say something. When you say something, there's nothing for 
us to be fearful of. Then a lot of people could get the support 
that they need. And our girls don't have to walk around this 
shame.
    The thing that hurts me the most is a young girl, 14 years 
old, came up to me in a school and said, ``I'm okay, nobody is 
going to hurt me.''
    I said, ``What happened.''
    She said, ``I've been blessed.''
    I'm like, ``What do you mean?''
    To be blessed is when you let boys gang rape you for 
protection. This is happening in the schools. The security knew 
about it and the principals know about it and nobody is saying 
anything about it.
    You know, I don't understand. But we have to talk about it 
and hold these schools accountable. And we have to let them 
know that we know so we can solve the problem as though acting 
as though there's no problem.
    Chairwoman McCarthy. Chris?
    Mr. Maddox. Like Ms. Sapp-Grant previously said, this money 
is being monopolized by these well-known organizations and the 
core problem is the failure in--we have an outreach center 
where we just not reach out to the gang member or a person 
that's in the gang, it's about the families. It's about 
restoring a home, bringing God back into the family and making 
the man head of the household, which is, like, you--it's about 
bringing restoration back into your household and you not--and 
attacking the core of the problem.
    The core of the problem is the family and this person is 
just not going out in the streets and acting because he's just 
angry about his community. It's about his house. It's basically 
the household, basically.
    Chairwoman McCarthy. Mr. Platts?
    Mr. Platts. Thank you, Madam Chair and my sincere thanks 
for all of you, again, for your written and passionate oral 
testimonies here today.
    Is it Argueta?
    Mr. Argueta. Yes.
    Mr. Platts. I appreciate what you shared today. And one of 
the things I think that hit home is the issue of prevention. 
And kind of what's setting this backward is talking about 
building bigger prisons.
    I think one of the challenges we need to address as a 
nation is can we spend money on the immediate issues and 
problems--I'm talking about preschool or earlier intervention 
programs--the results, the dollar spent on those, we won't see 
for years. But we know they will be effective dollars spent, if 
we do.
    And so we spend more money on what's the problem that we'll 
try to see it resolved instantly. And that's law enforcement 
dealing with it, instead of diminishing law enforcement.
    One of the things I was hoping, Ms. Sapp-Grant, is your two 
programs, could you walk me through how you are funded, public 
versus private? And on the public side, from a percentage or 
rough share federal, state and local dollars; how do you fund 
your programs?
    Ms. Sapp-Grant. Private. Most of our funding is private 
funding. It's foundations. Our first foundation would be New 
York Woman Foundation. We were supported by my husband for many 
years, thank God. He's a lawyer so he totally understood there 
was a need there.
    Mr. Platts. His personal funds?
    Ms. Sapp-Grant. Yes. We're still there.
    Our board does a lot of fund-raising but most of our money 
is--we still have never received--besides from the Woman's 
Group--no funding.
    Mr. Platts. So on an annual basis, public dollars are 
minimal or not at all to you?
    Ms. Sapp-Grant. Not really, unfortunately.
    The other part to talk about is the fact we have to sit 
down and eat. Our young people are not used to that. They're 
used to eating, but sitting at a table and really 
fellowshipping around the table in the evening time before they 
go home. And they could eat when they go home. But we say a 
prayer, meditate and have a good time and eat.
    So we get that through the youth program and that's about 
$20,000 a year. That is well used, that's part of the therapy 
we were all talking about at this table and it means a lot.
    But most of it is private funding and we are constantly 
putting out, you know. And I know our proposals are great 
proposals, well written, and our program is also supported.
    We did a lot of research through Columbia University which 
tracked our program over a three-year period to see what the 
heck are you doing and are your outcomes measured in the work 
that you're doing, and the fact is that we do track our young 
people up to two, three years afterwards.
    Most of our young people now, since our organization has 
been around for a while, we have our older people who are now 
alumni coming back as mentors or who are now in college. So 
they're doing very well.
    You have young people who even have not gone the straight 
and narrow who may have had young children or got into drug 
problems. They still come back for support. So the success is 
not only people that did super good, but young people learn how 
to reach out and help when they do stray.
    So there's a difference in there.
    Mr. Platts. Thank you.
    Mr. Argueta. From June of 2000 to about the middle of 2004, 
our organization sustained--and I was running it out of my 
house, out of my room and we counted on volunteers. Our T-
shirts is a major sort of income. For just 10 dollars, you too 
can be wearing one of these.
    Mr. Platts. Do you have an extra one with you?
    Mr. Argueta. We appreciate it. We appreciate it.
    So, you know, that's basically how we were doing it.
    In the last two years, we've seen a lot of growth. We had 
those two agencies which I previously mentioned, Uniondale 
Community Council and Freeport Pride served as partners where 
they showed up, signed on as collaborators and helped us 
overcome the things that I was foreseeing.
    Originally, it was the Long Island Community Foundation and 
small foundations donating to our cause. We started a 
beautification project, really getting the word out on the 
streets, spreading the idea that we're not anti-gang, anti-gang 
violence. It's quite different. We're trying to rid these young 
people of negative behaviors.
    So in the last few years, we've seen a lot of growth in 
regards to being able to compete for grants at the local level. 
We also got a little bit from republicans in the Senate and at 
the state level. Small $5,000 grants that really helped us that 
don't tie our hands to the recipe of which government--the 
government came up with this idea that, ``We'll tell you what 
we need,'' where, in reality, they don't know.
    We have to tailor our programs to their recipe, where, in 
reality, they should propose and allow us to come up with our 
own recipe.
    So thanks to the local level, state level and Congresswoman 
McCarthy was instrumental in assisting the youth board with 
gains and funds for employment. And so we did get a small 
$70,000 grant to assist in hiring a full-time job developer 
that also assisted these young people with counseling. That was 
very effective.
    But, again, with what we're seeing in the nonprofit sector, 
there is a decrease in availability in funds. So we're looking 
for innovative ideas to develop funds.
    Ms. Sapp-Grant. You know what? Sergio said--one of the 
things that was very important was the fact when you diversify 
it, begin to look at the underlying issues under gang violence, 
I remember Ms. Clarke saying, ``Well, we need to look at monies 
that would support job development or therapeutic 
development,'' you know, getting people through counseling or 
through the schools.
    Even if we got the support to say we will help you to find 
additional spaces or help you to expand the program to people 
who need it the most, you know, that's the access that you guys 
can provide that is priceless. Because a lot of times we have 
these programs that are phenomenal and we get calls all week 
from all over the country. We need Blossom here, we need 
Blossom there, people, individuals as well as agencies, as well 
as communities that are asking for it.
    But if we talk to you and we're able to reach out to you 
and you're able to get it to the communities most in need and 
partner with us on that level, that will get it out there.
    So it's not just single areas benefiting from it. We need 
to get it out to the people that really need it.
    Mr. Platts. Thank you.
    Mr. Hayes, I guess to wrap up, what I take is when we look 
at federal funding, the more we do on or part on a local level, 
where money comes down into our various not-for-profit agencies 
and law enforcement working together rather than us saying that 
we'll go for this specifically is really kind of a good focus. 
I want to try to get--I've got way too long a list of 
questions.
    Chairwoman McCarthy. We all do.
    Mr. Platts. Mr. Hayes, you talked about a number of the 
programs and therapies that you were doing and criteria. I 
guess one of the questions I'm going to ask is what is the 
right criteria to determine the program is successful?
    I'll use an example. Growing up--I'm the 4th of 5 kids. My 
mom and dad are my heroes. The upbringing they gave us--my mom 
was a stay-at-home mom but worked a lot of part-time jobs that 
involved kids. Park director, rec center, and in that park 
there were a lot of kids that were, you know, on that verge of 
being in the juvenile detention center, right on the 
borderline. And my mom--I was a huge blessing to her because 
she was treating them as her own children. Everyone in that 
park was one of her children. And so she expected to discipline 
them the same way she disciplined us, which is, you know, to 
this day, 40 years later, they're individuals who will stop, 
visit my mom from that park who didn't go on to get a college 
degree, didn't maybe become a huge success in society's eyes, 
but they didn't go to prison and they stayed out of trouble 
with the law in an official capacity, and maybe did some things 
that they shouldn't have.
    But overall, that leadership that she gave that park, I 
don't know how you judge that in a scientific way. So how would 
you say that the established criteria--one of your statements 
was the federal funds should be very much an outcome basis, 
either you're succeeding or you're not. If you're not you don't 
get the money. How do we know well enough.
    Mr. Hayes. I think we need to look at--S.T.R.O.N.G. 
determines that. I think the case of your mom, and lots of good 
things happened while she was working with them, but she also 
changed the way people led their lives after she stopped 
working with them. And a program should work while they're in 
progress. The proof of the pudding is what happens afterwards?
    Mr. Platts. What would be that criteria? That they're 
gainfully employed a year later, not in prison?
    Mr. Hayes. Not in prison, not removed from the home, in 
school, finishing school, avoiding arrest, avoiding gang 
involvement.
    Part of it, as we go in and fund things, we have to put 
enough money in there and also work with the universities and 
the likes where the universities feel a responsibility to 
track--just as did with Ms. Grant's program--to be able to 
track things and say is this a sustained determined effect.
    I think if there is a sustained determined effect--the 
saddest thing I heard today was Ms. Grant still living with 
private funding. There's something wrong about that.
    The other thing I want to say--and block grants are 
simplified--but let's avoid the problem of block grants in the 
past. Usually when we put together block grants in the past, we 
looked at federal funding and cut it.
    The block grants only make sense if we do it in a way where 
it becomes a tool to produce results. If you want to look at 
some of the Washington Policy Institute studies, dollars spent 
on effective prevention today save many tax dollars in the 
future. We're talking about $60,000 a year to keep somebody in 
prison, 120,000 to keep youth in youth detention.
    Having the cost of domestic violence, cost of substance 
abuse, if we look at all those costs, we have to see that we're 
making an investment and let's make an investment to reduce 
those future costs.
    Mr. Platts. Thank you, Mr. Hayes.
    Thank you, Madam Chair.
    Chairwoman McCarthy. From Brooklyn, Ms. Clarke?
    Ms. Clarke. Thank you, Madam Chair. Thank you to all our 
witnesses here today as well.
    This has been a very informative, reaffirming, quite 
frankly, to me, type of hearing because I think this is an 
issue that we must confront and give life. It's just time, 
Madam Chair.
    This subcommittee, I'm so glad I was able to come on it. 
I'm one of the newest members. So I am glad I am able to get on 
Healthy Families and Communities because that's what many 
municipalities are seeking right now.
    We've heard conversations here from the law enforcement and 
the intervention provider end. What I see, what happens over 
time is the misdiagnoses have been very costly to us. Costly 
not only in the tax dollars that we have put into the system, 
which is multifaceted, but also costly to the lives of the 
people who we live with. These are our neighbors.
    We are manufacturing a lot of this behavior in our 
community right before our very eyes. Until we put the 
resources into community-based prevention strategies and look 
at the formulas and re-engineer them, because as Mr. Hayes 
stated, I see this as a local official, when you get a block 
grant there are these giant organizations that need to be 
maintained. That is their main focus and purpose at a certain 
point in time. They have to be maintained. So right away their 
application is re-supported.
    That doesn't leave any room for any new innovation in 
support, particularly when we're cutting a lot of grants. 
Either we're going to look at new methodology for addressing 
these organizations, which means that some of the organizations 
that traditionally been funded will have to lose some funding, 
or we continue as business as usual.
    And I think this is really a very critical time for us to 
really re-engineer how we're going to address the methods that 
are really dealing with and managing this issue properly.
    The criminal justice system, the law enforcement that takes 
place in communities, in urban areas and other places are 
heavily vested with regard to funding. On the other end, our 
children are being exposed to the criminal justice system and 
law enforcement a lot earlier in life than they have ever 
before.
    When you think about the fact that in most of the public 
high schools in New York City you already have police officers 
stationed there. Behaviors that should get you in the 
principal's office can now land you in central booking. And so 
that begins a process of exposure, of alienation, that when we 
start stalking about families--you know, everyone has a vision 
of family in their heads. I heard the chief say family and then 
I heard the folks on the other side of the table say family. 
The problem is that we're not talking about the same types of 
families. Families range.
    Some families are very high functioning and produce some 
crazy kids. Some families are poorly functioning and produce 
crazy kids. Grandparents are raising very young children; 
foster care is raising children.
    So all of these nuances, Madam Chair, have to be addressed 
if we're going to get to why we can get alienated so quickly in 
our society in gang-related violence, in gang related 
activities.
    I want to ask a couple of questions. All of this is wrapped 
up in my brain and I want to get to the root of what has to be 
focused on in our nation with real, practical solutions and not 
in a one-size-fits-all type of way. We have to change that 
mindset as well.
    We talked about the criminal justice system and kind of 
brushed it over. I wanted to get to juvenile detention and what 
happens in terms of interventions to address that whole 
juvenile detention piece. I'm aware of the alternative to 
incarceration and alternatives to detention, but what kind of 
discharge planning are we talking about here?
    We have young people that are incarcerated, they become 
professional gang members. Now that they're locked up and we 
say, ``Okay, you've done your time, go back to your 
neighborhood,'' we're sending back professional gang members 
back to the neighborhood. There's been nothing in between that 
time they've been incarcerated and when they end up back in the 
hood. And I'm saying, what types of things are we seeing or 
hearing about discharge planning for young people? That's my 
first question. And I'll stop there for right now because I've 
said a lot.
    Chief Woodward. Congresswoman, I would speak to the D.A., 
she's not here.
    They have a program in Nassau County called Rising Star. 
Rising Star, when an individual is incarcerated with a charge 
through the system, it's alternative sentencing. And she had 
mentioned that briefly. The individual in that case does not 
get a criminal record, they are screened by the District 
Attorney's office to determine what the offense is.
    Obviously, different levels of offenses are going to be 
handled in a disparate manner. You will have a situation, 
relatively minor type of offense, once the individual crosses 
over into the area of a violent felony, the Rising Star program 
is no longer available. And that would probably indicate, for 
all intents and purposes, a lengthy detention, sentence.
    The lesser offenses, through Rising Star there's actually a 
program, an educational component where the person has to fill 
that component to successfully complete the Rising Star 
program, complete the program where they obtain no criminal 
record, there is criminal disservice. This is a chance for the 
child to return to the community without being involved.
    But if I may, also, one of the more disturbing trends that 
we're seeing now is where a police officer is called quite 
commonly to intervene in domestic situations involving young 
children and their parents. And, again, we're bringing law 
enforcement into the family household. It's not really our 
role, but we--unfortunately, society has given us that role 
because Child Protective Services is inaccurately funded, other 
social programs that are available are minimal, at best.
    So we need to intervene in that case and it's important for 
us to assist the family. And more than that, give referrals to 
organizations such as Pride, other outreach organizations to 
get the family the help and assistance necessary so it does not 
become a reoccurring problem to both law enforcement and the 
family.
    I also believe that we're very serious about crime 
prevention, that the way is not the traditional law enforcement 
approach. To make the houses fortresses, talk to people how to 
be safe every time to go out publicly, it's to start to 
intervene at earlier ages, as said earlier by Congresswoman 
McCarthy and others on this committee. That is the true step, 
true direction we have to take because that's the only way 
we'll make a better tomorrow.
    Ms. Clarke. Thank you, Chief.
    Mr. Argueta. Congresswoman Clarke, here in Nassau County, I 
can honestly tell you we have not been serious about re-entry 
and it's not a priority whatsoever. What we're finding is that 
the discharge planning is non-existent and it consists of 
actually referring those same kids to these same small not-for-
profit organizations and that's the discharge plan.
    We've been looking at it as something that we would like to 
focus on. We've partnered with the Uniondale agency who just 
submitted an application in regards to seeing if we could fund, 
get the funding with those individuals who are already working 
in this particular arena to see if we could further develop 
these plans.
    You know, a lot of these kids unfortunately, or even 
adults, have it better while incarcerated than they do out in 
the world. They're able to excel so much in regards to the 
programs and institutions because all of their needs are being 
met. Yet, upon discharge plan there is no plan there. So that's 
why we have a 70, 80 percent resistance rate throughout the 
entire country. So that's definitely something that needs, you 
know, much more attention. To tell you the truth, it's minimal 
at best in many municipalities.
    Ms. Clarke. Mr. Hayes?
    Mr. Hayes. In the Bronx we're operating a multidimensional 
treatment foster care program. And it's one of the programs 
that has been studied by the University of Colorado at Boulder. 
Instead of going to upstate juvenile jail facilities, youth are 
placed without program, we place them in community homes with 
trained people in the community that live in the community home 
for 6 to 12 months.
    The host parents, as we call them, are particularly trained 
in a behavioral approach. They're supported by 24 hours on-call 
by our program staff. Each of the youth has an individual 
therapist that works with the youth weekly. Each of the youth 
have a family therapist that works with the family and bio-
family to help the bio-family learn to be stronger parents. 
There is also a skills trainer involved in the model, we have a 
nurse.
    So we're updating medical needs. It is a different kind of 
program. A lot of times we feel more comfortable with youth 
being away in jail. Our youth stumble, get into problems. While 
in the program, we review problems as an opportunity to build 
skills and to learn.
    We recognize that we could help kids succeed in the 
community. As they go back to their families, there is a 
greater chance succeeding than if they're sent away upstate.
    In Monroe County, the state operates industry, a large 
facility of the Office of Children and Family Services where 
youth are traditionally placed through the year. We use 
Functional Family Therapy.
    Another blueprint program, to begin working with families a 
month to six weeks before discharge to bring the youth and 
family together, working on relationships, working on family 
assistance and improving that so that as the family goes back, 
we just can't take youth away and leave families in the same 
shape.
    Also in Monroe County youth are arrested and they're placed 
in detention while awaiting disposition. We have introduced 
Multi Systemic Therapy. The third blueprint program is aimed at 
adolescence and their families.
    And our workers have four families that they're working 
with in the home every day. And if we look at many of the 
problems is the influence circle. Ideally the influence circle 
should be the family. In a lot of these cases the family 
circles get broken down. What we're doing is working to rebuild 
the family, working to bring in community organizations, like 
the church that the youth belongs to and the like, to rebuild 
the circles of support around the youth to give them a chance 
to go and to learn and to practice more normal behavior.
    Ms. Clarke. Mr. Hayes, what is the average cost per child 
that would come into your program?
    Mr. Hayes. Well, if you look at our residential program, 
the multi dimensional treatment foster care costs about $70,000 
a year, still less than prison. If you look at, you know, 
Functional Family Therapy, probably costs about $5,000 for the 
intervention, Multisystemic Therapy about $7,000 with the 
intervention.
    FFT is lasting three months roughly to 4 months; Multi 
Systemic Therapy group would be 4 to 6 months for the family 
and youth.
    Ms. Clarke. That says something right there when we start 
looking, Madam Chair, at how we're going to approach this in 
the reorganization of No Child Left Behind.
    Thank you.
    Chairwoman McCarthy. Thank you, Mr. Hayes.
    One of the things from listening to all of you--if you 
don't mind, I don't know the time constraints you may have. But 
some of us have one or two more question, if you can stay with 
us.
    In July, I believe it was you that brought up that we were 
going to be talking about, you know, sometimes there's a cross 
in jurisdictions. We're going to have a hearing with the 
judiciary committee in July, because they have jurisdictional 
programs, whether it's incarceration or some of the other 
programs. So we're going to work together on that.
    We have done that also with our--we were trying to do it 
but it didn't work out this year--on the agricultural 
committee, mainly because one of my other subcommittees that 
we're on, we're looking at children and obesity. So we're 
trying to convince people that we could still make money but 
you can put an apple in the machine instead of having some of 
these other particular foods that they put in there.
    But I guess the question that I would like to ask, 
especially with you, Chris, being that you came out of prison. 
I hear from correctional officers all the time, services that--
especially young people in prison--that they need.
    But, you know, in this country some complain that if you 
try to help those in prison, you were soft on crime. You are 
going to be out of prison one day. There has to be jobs out 
there, there has to be a way of coming back into society. There 
has to be educational opportunities as well as in prison.
    That's something that I happen to think that if you really 
talked about it instead of having a ten-second sound byte, 
you're actually trying to improve the communities that they're 
going back to. It has nothing to do with being soft on crime.
    I do believe that when we have those that are incarcerated, 
whether it's in juvenile detention center or prison, we have 
the opportunity that particular time to give the services.
    Let's face it. If somebody doesn't want to take them, you 
can't do anything about them. You have these people that need 
help. Some can't be helped but I do believe if we try, they can 
be. This is one of our chances.
    So I was wondering, did you receive services? And also, 
what kinds of services are needed when somebody is 
incarcerated, when they come back out.
    Mr. Maddox. Well, some of these services go inside prisons 
and talk, instill in their heads that this lifestyle is like a 
dead end. And the process is renewing your mind.
    We need things that's going to challenge the way we look at 
things. We're going to have organizations out there to get you 
a job. But if you don't know how to keep that job, you will not 
succeed in life.
    We need organizations that will judge the way you think. We 
need organizations that's not afraid to come into these 
prisons, that are not afraid to make contact.
    We need organizations that's right there in the core of the 
problems. And H.E.V.N. is right there at the core of the 
problems and on the streets. Right there.
    We need organizations that's going to challenge the way we 
live.
    Mr. Argueta. Like I said, we're been working a lot with 
these organizations out on the West Coast. One of the most 
effective programs that they have institutionalized within the 
prison walls is called Criminal and Gang Members Anonymous. 
Basically a 12-step approach, same way you would to a drug, to 
alcohol.
    The criminal lifestyle and gang life is a serious 
addiction. And what these individuals came up with is a 
curriculum, a 12-step program developed by an inmate who is 
serving a lifetime sentence alongside his own child. And it's 
basically looking at the law, the look of the streets, and it's 
a self-help initiative.
    In other words, I always say S.T.R.O.N.G. does not get kids 
out of gangs. All we do is provide assistance. If a gang member 
has not hit rock bottom and says, ``I want to change my life,'' 
there is no program or religion in the world that can get you 
out of a gang. This program has been very effective.
    One of the things we're doing in the same process, the re-
entry application, developed this self-help model to put out in 
the street.
    Individuals from the Nassau County Probation Department are 
actually looking to implement this program themselves and 
unfortunately, the funding just isn't there.
    That's where you have an excellent opportunity for 
collaboration between law enforcement and organizations to 
attack an issue.
    Just my view on what you previously stated. What you're 
doing is being tougher than anyone else on crime, by talking 
about prevention and intervention, because you're going beyond 
the barrel of a gun and a handcuff in a prison cell. You're 
actually saying, ``I am really going to be tough on crime and 
make sure that we nurture you and take care of you to realize 
how that how special and unique each one of my community is.''
    So I just wanted to share that with you.
    Chairwoman McCarthy. Thank you.
    Chief, I was wondering, because obviously, you've been in 
the Village for a long time, you've worked on this issue for a 
long time. You've seen some that have gone to Nassau County 
jail, prison.
    When you see them come back to the community, where is 
their stance? Do they go back to the gangs because of the 
services we're not providing? What happens when they do come 
back into the community.
    Chief Woodward. More often than not, resume where they left 
off. One of the things we've seen is when you are a gang 
member, the gang membership solidifies your position in the 
jail system. Our prison system is actually a gang incubator.
    If fact, if we look at the Mexican Mafia, which was one of 
the primary gangs that really started to spread in this system 
of embracing a gang presence within the penal system, we look 
at the fact that our own system of justice allowed it to spread 
nationally.
    When the Mexican Mafia was first in the California federal 
prison system, they felt that by moving them and separating 
them throughout the country, they would alienate their 
influence. Instead, what we did was facilitate growth. Because 
what we permitted is we permitted that when you want to process 
an appeal, you haven't had the record of assistance in the way 
of witnesses and we actually then flew all of them together and 
allowed them to perpetuate the system.
    Only now, we've actually supported these gatherings that 
allowed the Mexican Mafia to become one of the most powerful 
prison gangs in this country.
    Chairwoman McCarthy. Mr. Platts, do you have any more 
questions.
    Mr. Platts. Thank you, Madam Chair.
    Mr. Hayes, in your written testimony you mention and we 
talked about those who have participated in various therapy 
programs and that 60 percent complete the programs and show the 
results about the program.
    Is there a single or acute factor that you identify as the 
biggest difference between those who do complete the programs 
and are successful and those who don't? Is there a family 
issue, is it drug related; anything that jumps out and 
distinguishes the groups?
    Mr. Hayes. I think that what would distinguish would be 
evidence-based and non-evidence based treatment. I can talk 
about that. Those who succeed and those who don't succeed. 
We're still looking for more common denominators.
    Sometimes it looks if the factors are there, you can expect 
success and you don't see it and other times you don't.
    I think that one of the things we have to understand is 
while these approaches are better approaches, there's no silver 
bullet. That a lot of the people we've worked with have been 
trapped into negative behavior, poverty, there's been a 
tremendous amount of trauma for a long period of time.
    And I think the encouraging thing is we could work with 
about 60, 70 percent of the people who have failed in other 
programs, we can go and turn around. We still need more effort 
to see how we reach the others and turn them around.
    I do want to support what everyone here has talked about, 
about poverty being one of the underlying issues. And if people 
are in bad housing and bad jobs, we're going to keep people 
like me in business because there's going to be lots of social 
problems, lots of victims of society who are going to be 
damaged.
    We have Chris Maddox before who talked about hurt and heal. 
We have to do things that are going to lessen the hurt and 
promote more healing.
    Mr. Platts. Thank you.
    Ms. Sapp-Grant. One of the things that we have to look at 
is post traumatic stress syndrome. This is something that 
affects most people.
    I remember, you know, just thinking as a younger person, 
dad, ``Why doesn't everybody see this? Why isn't this quite 
obvious to people.''
    But having a young gentleman talk about the fact that even 
after he got out of the gang, he still can't sleep with his 
little daughter because he's not used to being out of the 
violence because it's so real.
    But if you live in a community where people are being shot, 
and if you even watch television for too long or even the news, 
you get those same feelings. I imagine if you're around that 
24/7 every day, you're dealing with it and you need a 
counselor, you need a therapist in order to deal with it. And 
in most cases you need medication.
    So these are very real issues, they are medical issues that 
a lot of our young people are dealing with. So we have to end 
depression.
    Again, they can deal with alcohol or there are so many 
cases. But in this case we're talking about gang violence.
    Mr. Platts. I think it goes to the complexity and issue of 
challenge. There's no simple solution, it's going to take a 
very coordinated, organized effort.
    We talked about prevention. Our colleagues Dan Davis from 
Illinois, he and I are sponsors of the organization called 
Home, and it's not trying to reinvent the wheel. But it's 
taking effective programs that help mostly low-income families, 
single-parent families to be a better parent for children to 
help them get on track in the beginning.
    I count my blessings because I say, ``Hey, I'm a product of 
my mom and dad.'' that example that I had, I had that benefit 
and I seem to give that to now my children. It's societal 
changes today, both parents are working because of economic 
necessity. No matter how loving or devoted a parent you are 
you're working two jobs just to put food on the table or pay 
bills.
    The preschool studies that are now 30 years strong show 
that every dollar we invest today down the road, the return is 
many, many more dollars, more productive workers.
    So I hope that as we move forward from this hearing what 
each of you brought to us is an important piece to this puzzle 
of what we need to do in prevention, in intervention, in law 
enforcement. We certainly need to protect or citizens as well. 
But at least we're confident in that approach.
    I want to thank you again, Madam Chair, for supporting this 
and having diverse testimony. Actually, that made me think of 
one last question actually.
    Ms. Grant, you mentioned about one of the challenges of 
immigration, we seem to have more individual groups, and that 
language issue the Chief mentioned about common language of the 
past, do you think that the issue of more promotion of funding, 
as it relates to No Child Left Behind, in schools as English as 
a second language where more and more students of which English 
is not their first language, maybe we're not doing enough to 
help the child learn to break out of that community, their own 
community and better assimilate it to the broader community.
    Ms. Sapp-Grant. I don't think that's it. It's classes. It's 
still property. It's still a different color, unfortunately, 
trying to become part of the mainstream.
    Mr. Platts. My question is, is that one of the barriers, 
the language barrier.
    Ms. Sapp-Grant. Language is a part of it but it's also 
acceptance. You know, when I think about it, I don't want to 
stigmatize or point out a group of people, but in order to give 
an example, when you talk about Mexicans and all of the Mexican 
people who have come here and built this country and brought 
such a piece of the American--we've separated, we've stigmatize 
them, labeled them, then we wonder why gangs then separate and 
take over their children. We give them the ammunition to say, 
``You know what? Look at the way they treat you. Be a part of 
this, we will build a culture.''
    It's the same with any other people. You are going to be a 
part of your people. But there are people that are just evil. 
But if we give them the energy and the tools to do that, to do 
those things, then we're part of the problem. We have to 
embrace them in the same way we embrace Italians, Irish, we 
have to embrace all people and we haven't done a very good job 
at that.
    Mr. Argueta. Congressman, one of the things we need to do 
is develop inclusion programs. By that, I mean when you walk in 
a school and speak a different language you're placed in an ESL 
classroom and receiving services is like a breeding ground for 
this because ESL students are treated differently, they're made 
fun of. Because you dress a certain way, you're not part of the 
popular culture. You get bullied a lot. As a result, these 
students are joining gangs as means of protection.
    The minute you come in as an ESL student, you have the head 
of the cheerleading squad, head of the chess club or math club 
welcome you, embrace you and introduce you to an entire group 
of friends, positive peers, I can honestly tell you that we are 
light years behind in regards to addressing the gang epidemic.
    And if you really look at the ESL population, we're twice 
that behind, scraping the services of the means of that 
population. I'm not talking about the undocumented population. 
I'm talking about those that are legally here. We need to get 
to the core of that.
    Here on Long Island we're regarded as the most segregated 
suburb of the entire country. So our belief, and we've talked 
about it even through our own chapter, starting this year we'll 
provide counselors and start an ESL S.T.R.O.N.G. chapter to 
address the needs of those kids in their own native language. 
So for us, it's inclusion in making them feel they're part of 
us.
    Gang members often say gang life is a family. We agree with 
that. But the fact is it's an abusive family. It's one that 
beats you from the moment you get in. It rapes you physically, 
emotionally and destroys you. That's your community, those are 
your parents, you know, your religious leaders, that's what we 
want to focus on, inclusion.
    Mr. Platts. Your testimony really makes the point as one of 
the challenges. Thank you, again.
    Chairwoman McCarthy. Ms. Clarke, would you like to ask one 
question?
    Ms. Clarke. I am very conscious of the time. I'll make it 
very short. But I wanted to respond to the last statement.
    I think one of the things that America has to realize is 
that human beings are human beings. The issues are in the 
values that we share. If we don't have shared values, and there 
are some in our society who value themselves less than others, 
and we reinforce that and everything else, then we helped 
create that climate. If we begin to share our values in a way 
that people recognize that they can be, as you would say, Mr. 
Platts, assimilated and they're not giving up anything of 
themselves in doing that, but they're enhancing and enriching 
who we are as a nation, we would be going a very long way.
    I want to focus on gender specificity here and put that on 
the record, Madam Chair, because I think what is more shocking 
to me is the level of participation we see of girls now in gang 
activity. I'm sure it existed for quite some time. But I'm 
noticing having visited many facilities who house women that 
are incarcerated, that they're growing, children are actually 
having children while incarcerated in the facilities with them. 
And I think we need to put on the record some of what could be 
done to address that.
    So I want to put my question out there for everyone, but in 
particular Ms. Sapp-Grant.
    There seems to be a significant increase of girl gangs. It 
is my understanding that your program is one that develops a 
sense of self-worth and will to make positive changes in their 
lives in the communities. Can you describe what your program 
does, just a synopsis because we're short on time.
    Ms. Sapp-Grant. What we're seeing--and throughout my career 
I used to work in locker facilities in group homes and juvenile 
justice facilities and these facilities that took our young 
people off the street--people who needed supervision and we get 
young people who come in as gang members or, you know, who are 
at risk of becoming gang members, when they come to our program 
we have an assessment that's done, yet we do the piece that Mr. 
Hayes is talking about where you really set up those goals.
    Those goals are not developed by us saying, ``These are the 
things we need to accomplish.'' it is about creating a system 
with that young person and finding out what they want to do in 
their lives. Our goals for a young person may not be the same 
as yours. ``I don't want to argue so much with my parent. I 
know I don't want to be with this group of people but I don't 
know how.''
    You know, they're not going to come with the same things. 
So we're learning also not to push all our ideas on that young 
person. In order to keep them out of trouble, they're going to 
develop over a period of time.
    Our program is three tiered. The first part is getting them 
to a place of safety, getting to know that person. The second 
phase involves getting them involved with a mentor, making sure 
they're in school, making sure they get the clinical support 
that they need. The program is very comprehensive.
    So it's a clinical piece where, you know, each person does 
have a therapist. There's an educational piece. Each person is 
back in school or getting their GED. Because, again, everybody 
is not going to college. Everybody is not interested in that. 
If you come to us and say, ``You know what? I want to go 
here.'' then we'll do our best to help you, support you in 
getting to your dream. Not our dream but your dream. It's about 
advocacy and leadership.
    A lot of these youth are smart, brilliant. Getting them to 
talk to the people, to learn how to access the services that 
they need, because part of it is just the fact that we're not 
addressing our needs.
    So if you're saying, ``You know what? I'm hurting.'' and 
nobody, your teacher is not listening to you, or your guidance 
counselor is not listening to you, you're going to turn to 
something else.
    A lot of time it's just frustration. It's about getting 
them back into the school or changing schools, or special ed if 
they need it. Because a lot of times they're not getting what 
they need in schools. Sometimes people need a different school 
setting.
    The other part is the mentoring. We make sure every one of 
our girls has a one-on-one mentor based on what they want to do 
in their lives. One who wants to go into law, which a lot do, 
we have school lawyers we find, constantly recruiting mentors 
to make sure our girls have access to mentors.
    The advocacy and leadership is crucial because these are 
girls that go out and march against--again, they all develop 
their other political minds. It's letting them understand they 
have the power to speak and they begin to use that, which, 
again, alleviates the anger. Because now we're learning how to 
talk.
    We do anger management, we do family counseling which is 
crucial because we have a lot of girls that come to us because 
their parents say, ``Fix her. She's broken. And it has nothing 
to do with me.''
    So I would think, no, we will help your family. We won't 
fix her so she could go back into your house. So let's work 
together as a family. It's about bringing the whole family to 
the table.
    And sexual abuse, which is, again, a critical issue. 75, 85 
percent of our girls. You just can't change it. It keeps coming 
over and over again. We have to address those issues and help 
them to address it in a meaningful way.
    The last piece is jobs. We have a program called Girls in 
Business. So they create their own things. It's not about 
waiting for employment to roll around because a lot of them 
don't get. Cozy Comfort pillows, they create pillows, they 
create stabs, carbon stabs that are very decorative. And then 
whatever it is they want to do, because that's what it is 
about, being an American child, that we as adults are out there 
to help them realize their dream and to realize how important 
they are to society.
    So as an organization, we help the community understand, 
again, how important it is to help support our young children 
in realizing their dream.
    It's not brain science or anything like that. It's about 
being human, being a community. If we do those basic things it 
doesn't cost $170,000, as it does to lock up a young person for 
a year. It costs very minimal to just be involved in a child's 
life and teach other people how to do it in a meaningful way.
    Chairwoman McCarthy. Ms. Clarke.
    Ms. Clarke. Thank you, Madam Chair.
    Chairwoman McCarthy. You're welcome.
    I'm going to do my closing statement. I want to thank each 
and every one of you. You really have given us an awful lot of 
information.
    We have probably gone over a little bit in our time. But 
we, as members, I'll be very honest with you, when we do a 
hearing down in Washington there are probably about 30 or 40 of 
us sitting there. So we'll give an opportunity to ask a second 
round of questions or even allow to take the time to get 
questions out and then have you come back without, you know--in 
five minutes, let's face it, five minutes is not much time 
really but we have a luxury to be able to be here a few more 
minutes.
    The complexities that you all brought out, those are things 
that we will go over. Everything has been taken down so we 
could go over it and see how to integrate that with other 
programs that we have out there.
    You're absolutely right. It was brought up a number of 
times. We have to figure out how to make sure that money is 
available for those programs, to go back to the communities on 
a community level.
    One of the things I found is there's a lot of repeating on 
programs even here in my own district when we fight to get 
grants back into our district. And you might have 5 or 6 
programs in the district doing what they say they're going to 
be doing as far as working with gangs and other issues.
    There's only one goal that we're all looking for. How are 
we going to help our young people? How are we going to make 
sure they have a productive life, to live their dreams? I think 
that's what we all feel strongly about.
    Again, I thank you all for your testimony. At this time, we 
have to go through the formality of closing the hearing.
    As previously ordered, members will have 14 days to submit 
additional materials for the hearing record. Any member who 
wishes to submit follow-up questions in writing to the 
witnesses should coordinate with the majority staff with a 
request of time.
    Without objection, this hearing is adjourned.
    [The prepared statement of Jane Bender follows:]

  Prepared Statement of Jane Bender, Committee Chair, Gang Prevention/
                         Intervention Programs

Background
    The City of Santa Rosa, California (pop. 157,983) is located 50 
miles north of San Francisco in the heart of the Sonoma Wine Country. 
Our median income is over $75,000. The average home price is over 
$500,000. It seems like an unlikely place for gangs to breed and grow, 
but they have. For the past several years, the gang violence in our 
community has continued to escalate to a point where the community 
finally said...enough!
    In 2004, the citizens passed a quarter-cent sales tax measure that 
would provide funding for fire stations, gang prevention/intervention, 
and gang enforcement. We receive $7 million annually which is used to 
address these important community issues.
    After researching successful models in cities throughout California 
we took the best of San Jose and Fresno and formed the Mayor's Gang 
Prevention Task Force (MGPTF) and the Mayor's Advisory Board. From the 
beginning, there was an understanding that we could not ``arrest'' our 
way out of this critical problem. Gangs are a community-wide issue and 
need to be addressed with a community-wide response.
    The MGPTF is divided into two major sections:
    <bullet> A policy team that represents probation, the courts, 
schools, business, and law enforcement. The highest officials of these 
agencies sit at the table and get updates on the gang issues facing our 
community. They hear first hand what is going on in our city. They are 
the policy makers that can help reshape the way we respond to the 
crisis. It is working. The group has developed a sense of trust with 
each other and is finding ways to work effectively to change the way we 
work. They set the goals for our community to reduce the number of gang 
related violent crimes and the level of gang members; provide 
opportunities that assist young people in making healthy lifestyle 
decisions; and create and maintain safer schools and neighborhoods.
    <bullet> An operational team is composed of Police, Probation, 
Recreation and Parks, the District Attorney, non-profit community 
group, neighborhood associations, and individuals who are directly 
involved with youth. They are representatives who bring the knowledge, 
expertise, and resources to the table. They work in a confidential 
manner to help focus on specific areas of prevention and intervention.
    Recreation and Parks took the leadership role in developing the 
prevention and intervention programs. They receive about $1.4 million 
per year that provides critical after-school programs at school and 
community sites. Over $800,000 has been awarded to non-profits that 
work with gang-affiliated or at-risk of being involved youth through 
our Community Helping Our Indispensable Children Excel (CHOICE) 
program. The CHOICE program includes targeted funding for at-risk 
youth; outpatient counseling for youth and their families that are 
exhibiting pre-gang or gang lifestyles; parent and family support 
programs to help develop parenting skills; and job readiness training 
for gang involved youth.
After-School Programs
    We believe that a critical component to any gang prevention program 
is having a place where young people can be safe after school and where 
they can get tutoring and mentoring to help them be successful in 
school. Our Recreation and Parks Department, with the help of the tax 
money described above now offers after-school programs in almost 20, 
out of 34 elementary schools throughout the city. We hire people from 
the neighborhood that have an investment in the youth in the area and 
individualize the programs, depending on the needs of the students at 
the program. Because the program is still so new, it is difficult to 
measure how successful the Task Force is; however, we have found with 
the survey information that young people love the programs and are 
taking advantage of the opportunities they present and feel better 
about them, based on the Asset Model. We expect more definitive results 
within the next month that we would be happy to share with the 
committee.
Summary
    We believe that Santa Rosa has served as a model that could be used 
by other (small and mid-sized) communities to help young people succeed 
and stay out of gangs. The keys to the model are:
    1) Commitment from the policy makers that things will change
    2) Commitment from organizations and individuals that they will 
work together to develop programs that address a specific gang issue
    3) Ongoing funding source that is supported by the community.
    4) A commitment to evaluate and measure success and make the 
necessary adjustments
    We are happy to provide further details to the committee or address 
any questions that you might have about this program.
                                 ______
                                 
    [Whereupon, at 12:38 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
